<html>
<title> - THE 20TH ANNIVERSARY OF THE TIANANMEN SQUARE PROTESTS: EXAMINING THE SIGNIFICANCE OF THE 1989 DEMONSTRATIONS IN CHINA AND IMPLICATIONS FOR U.S. POLICY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
 THE 20TH ANNIVERSARY OF THE TIANANMEN SQUARE PROTESTS: EXAMINING THE 
 SIGNIFICANCE OF THE 1989 DEMONSTRATIONS IN CHINA AND IMPLICATIONS FOR 
                              U.S. POLICY

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 4, 2009

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov]



                  U.S. GOVERNMENT PRINTING OFFICE
51-191                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                             CO N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Hon. Byron Dorgan, Chairman, Congressional-
  Executive Commission on China..................................     1
Walz, Hon. Tim, a U.S. Representative from Minnesota, Member, 
  Congressional-Executive Commission on China....................     3
Barrasso, Hon. John, a U.S. Senator from Wyoming, Member, 
  Congressional-Executive Commission on China....................     4
Smith, Hon. Christopher H., a U.S. Representative from New 
  Jersey, Ranking Member, Congressional-Executive Commission on 
  China..........................................................     4
Pitts, Hon. Joseph R., a U.S. Representative from Pennsylvania, 
  Member, Congressional-Executive Commission on China............     6
Wu, Hon. David, a U.S. Representative from Oregon, Member, 
  Congressional-Executive Commission on China....................     7
Lord, Hon. Winston, U.S. Ambassador to the People's Republic of 
  China, 1985-1989...............................................     8
Levin, Hon. Sander, a U.S. Representative from Michigan, 
  Cochairman, Congressional-Executive Commission on China........    10
Link, Perry, Chancellorial Chair for Teaching Across Disciplines, 
  University of California-Riverside, and Professor Emeritus of 
  East Asian Studies, Princeton University.......................    11
Shirk, Susan, Director, University of California Institute on 
  Global Conflict and Cooperation, Ho Miu Lam Professor of China 
  and Pacific Affairs, School of International Relations and 
  Pacific Studies, University of California-San Diego, and Arthur 
  Ross Fellow, Asia Society Center on U.S.-China Relations.......    13
Yang, Jianli, Tiananmen protest participant; President, 
  Initiatives for China; Fellow, Harvard University Committee on 
  Human Rights...................................................    15
Kaptur, Hon. Marcy, a U.S. Representative from Ohio, Member, 
  Congressional-Executive Commission on China....................    23

                                APPENDIX
                          Prepared Statements

Lord, Winston....................................................    32
Link, Perry......................................................    33
Shirk, Susan.....................................................    35
Yang, Jianli.....................................................    39

Dorgan, Hon. Byron...............................................    44
Levin, Hon. Sander...............................................    45
Smith, Hon. Christopher..........................................    46

                       Submissions for the Record

Tiananmen Prisoners--Representative Cases of Persons Currently 
  Imprisoned or Detained Who Are Connected to the 1989 Tiananmen 
  Square Protests, submitted by Senator Byron Dorgan.............    48
China's Charter 08, translated from Chinese by Perry Link, 
  submitted by Perry Link........................................    50
Prepared Statement of John Kamm, Executive Director, The Dui Hua 
  Foundation.....................................................    54


 THE 20TH ANNIVERSARY OF THE TIANANMEN SQUARE PROTESTS: EXAMINING THE 
 SIGNIFICANCE OF THE 1989 DEMONSTRATIONS IN CHINA AND IMPLICATIONS FOR 
                              U.S. POLICY

                              ----------                              


                         THURSDAY, JUNE 4, 2009

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:33 
a.m., in room 628, Dirksen Senate Office Building, Senator 
Byron Dorgan, Chairman, presiding.
    Also present: Representative Sander Levin, Cochairman; 
Representatives Tim Walz, Christopher Smith, David Wu, Marcy 
Kaptur, and Joseph Pitts; and Senator John Barrasso.
    Also present: Charlotte Oldham-Moore, Staff Director, 
Congressional-Executive Commission on China and Douglas Grob, 
Cochairman's Senior Staff Member.

  OPENING STATEMENT OF HON. BYRON DORGAN, A U.S. SENATOR FROM 
 NORTH DAKOTA, CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Chairman Dorgan. We're going to begin the hearing today. 
This is the Congressional-Executive Commission on China's first 
hearing in the 111th Congress.
    We have a distinguished group of witnesses before us today 
and they will help us examine the significance of the tragic 
events that occurred in 1989 in China. They will also help us 
explore the implications of the 1989 Democracy Movement on U.S. 
policy toward China today.
    We are honored to have a number of Tiananmen student 
leaders and others who participated in those demonstrations 
with us in the hearing room today. I want to welcome one person 
in particular, Mr. Fang Zheng. I had an opportunity to meet Mr. 
Fang Zheng, I believe, the day before yesterday over in the 
Capitol.
    Mr. Fang was an athlete at the Beijing College of Sports. 
On June 4, 1989, he participated in the protests in Tiananmen 
Square. Tragically, his legs were crushed under a tank during 
that demonstration. He later was expelled from school because 
he refused to publicly deny the source of his injury. Mr. Fang 
later went on to become China's wheelchair discus and javelin 
champion. Earlier this year he moved to the United States with 
his family. We welcome Mr. Fang for being with us today.
    Twenty years ago, peaceful protesters like Mr. Fang 
gathered in Beijing's Tiananmen Square, calling for the 
elimination of corruption and for political reforms. They asked 
for the right to speak freely and for other freedoms that we 
now take for granted in this country. Those protesters included 
not only students, but government employees, journalists, 
workers, in some cases the police, and even members of China's 
armed forces.
    Chinese authorities repeatedly tried to persuade the 
protesters to leave Tiananmen Square, but they refused. 
Thousands of armed troops carrying automatic weapons in large 
truck convoys moved in to clear the square and the surrounding 
streets of demonstrators. Then soldiers and columns of tanks 
fired directly at citizens and into the crowds, inflicting a 
very high civilian casualty rate.
    Twenty years later, the exact number of dead and wounded 
remains unclear. The wounded are estimated to have numbered in 
the thousands. Detentions at the time were also in the 
thousands, and some political prisoners who were sentenced in 
connection with the events surrounding June 4 still sit in 
Chinese prisons today.
    I ask to be included in the hearing record a representative 
list of Tiananmen Square prisoners who remain in jail today. 
This list was developed from the Commission's Political 
Prisoner Database, which is the largest publicly accessible 
database of China's political prisoners.
    Relatives and friends have a right to mourn their sons, 
their daughters, their colleagues, and their friends publicly, 
and they have a right to call, even now, for a full and public 
accounting of the wounded and the dead. They have a right to 
call for the release of those who remain in prison. But for 
attempting to exercise these rights, relatives and friends of 
those killed in 1989 have instead faced harassment, they have 
faced arrest, suffered many abuses, and today we express our 
sympathy with their cause. Most of all, we honor the memory of 
those whom they loved whose lives were lost.
    Chinese authorities frequently tell us today that the 
Chinese people enjoy greater freedom to express themselves. At 
the same time, they repeatedly show the world how the 
government silences some who work for fundamental rights for 
all the Chinese citizens. Chinese authorities today continue to 
harass and detain human rights advocates.
    These include Mr. Liu Xiaobo and his wife. Mr. Liu was a 
Tiananmen Square protester. He is now an important writer and 
thinker who signed Charter 08. It is a petition that calls for 
peaceful political reform and the respect for the rule of law 
in China. It has been signed by many thousands of Chinese. Mr. 
Liu is now under house arrest because he endorsed Charter 08, 
and his wife faces constant harassment.
    Last month, I met in my office with the wife of a great 
human rights lawyer named Mr. Gao Zhisheng. Mr. Gao has not 
been seen or heard from since February. He represented 
persecuted Christians, exploited coal miners, those battling 
official corruptions, and Falun Gong practitioners.
    After Mr. Gao was placed under house arrest his family 
faced constant police surveillance and intimidation. His 16-
year-old daughter was barred from attending school. The 
treatment was so brutal that the family decided their very 
survival depended on escaping China.
    After his family fled, Mr. Gao is believed to have been 
abducted from his home by members of the security forces. He 
remains missing, and no word has reached us of his whereabouts 
or his condition. I have urged the Chinese Government, in a 
speech on the floor of the Senate and in letters, to inform Mr. 
Gao's wife and children, and us, about where he is and to 
release him.
    I also appeal to them to enforce internationally recognized 
standards of fairness and due process and ask that they release 
those individuals in prison solely for peacefully exercising 
their rights, whether they exercised those rights in Tiananmen 
Square in 1989 or in China today.
    This hearing will examine the significance of the 1989 
Tiananmen protests and their violent suppression by the 
government 20 years ago. How have citizens' demands for 
accountability and democracy changed in 20 years? What impact 
did the 1989 demonstrations have on the Chinese Government and 
the Chinese Communist Party over the last two decades? Of what 
significance is the violent suppression of the 1989 
demonstrations to U.S. policy today?
    Let me conclude by saying that China is an extraordinary 
country. It has had immense success on many fronts and is 
justifiably proud of those successes. But China, in my 
judgment, must now lead in strengthening the human rights of 
its people and the integrity of its legal and political 
institutions with no less skill and commitment than it has used 
to lift millions of its people out of poverty. So let me thank 
my colleagues for being with us today, and I will call on them 
for brief statements, then we will hear from the witnesses and 
have them respond to questions.
    Representative Walz?
    [The list of Tiananmen Square prisoners appears in the 
appendix.]
    [The prepared statement of Senator Dorgan appears in the 
appendix.]

    STATEMENT OF HON. TIM WALZ, A U.S. REPRESENTATIVE FROM 
 MINNESOTA, MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Representative Walz. Well, thank you, Mr. Chairman. Thank 
you to each of our witnesses who are here today. We truly 
appreciate it, and I very much look forward to hearing what you 
have to say.
    For those of you in the room who were in Tiananmen that 
day, I want to say thank you to you for some very personal 
reasons. Twenty years ago today I was in Hong Kong preparing to 
go to Fo Shon to teach at Fo Shon Number One Middle School. And 
I can tell you that for people of my generation, here, too, 
what you were doing in the democracy, that you were asking for 
and what the goddess of democracy symbolized was as strong for 
us as it was for you. It reinforced all that we care about, all 
of those things that we hold most dear.
    To watch what happened at the end of the day on June 4 was 
something that many of us will never forget, we pledge to never 
forget, and bearing witness and accurate telling of history is 
absolutely crucial for any nation to move forward. I thank the 
Chairman for this very insightful and timely hearing, and the 
nature of it in terms of where we go from here, how our 
relationships are shaped and what happens.
    Every nation has its dark periods that it must come to 
grips with. This Nation is no exception, and we still struggle 
with that. I took the first teaching job that I had at a place 
called Wounded Knee in South Dakota that many of us in this 
room know well, and I hail from the city of Mankato, Minnesota 
that has the distinction of being the site of the largest mass 
execution of Native Americans in American history, 38 men, 
women, and children hung the day after Christmas in 1863. Those 
are issues that all must be addressed, and every nation, as it 
matures and it deals with its human rights issues, moves to 
become a better nation.
    So I thank each of you for being here today. I thank the 
Chairman for putting this together. I thank those of you who 
are sitting in this room that know that something important 
happened in world history, something that touches all of us on 
this day, and your willingness to bear witness to that is truly 
important.
    I yield back, Mr. Chairman.
    Chairman Dorgan. Senator Barrasso?

 STATEMENT OF HON. JOHN BARRASSO, A U.S. SENATOR FROM WYOMING, 
      MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Senator Barrasso. Thank you very much, Senator Dorgan. It's 
wonderful to be joined by Representatives Walz, Smith, and 
Pitts, representing Minnesota, New Jersey, and Pennsylvania. 
Both parties are well-represented here from both bodies. I am 
very pleased to join the work of this Commission and to welcome 
our witnesses and our many guests.
    The United States has a long record, Mr. Chairman, as being 
a champion for liberty and freedom around the world. The United 
States also has a significant relationship with China. This 
forum today is a very important tool in supporting China's 
efforts to develop a government that respects the rights of 
individuals. I look forward to the hearing today.
    Thank you, Mr. Chairman.
    Chairman Dorgan. Senator Barrasso, thank you.
    Representative Smith?

 STATEMENT OF HON. CHRISTOPHER H. SMITH, A U.S. REPRESENTATIVE 
   FROM NEW JERSEY, RANKING MEMBER, CONGRESSIONAL-EXECUTIVE 
                      COMMISSION ON CHINA

    Representative Smith. Thank you very much, Mr. Chairman. I 
would ask that my full statement be made a part of the record.
    Chairman Dorgan. Without objection.
    Representative Smith. I want to welcome our very 
distinguished panelists, those who were there, those who 
suffered, and those who have been fighting for human rights in 
China for the entirety of their careers.
    Let me just say, briefly, that the brave and tenacious 
heroes of Tiananmen Square will never be forgotten, nor their 
huge sacrifice--that means, for some, torture, others even 
death--that that sacrifice never be in vain.
    Future generations of Chinese and other advocates of 
democracy worldwide will forever honor their courage, vision, 
and dream of democracy. The Chinese people deserve no less than 
the matriculation from dictatorship to democracy. The Chinese 
people are a great people and deserve democratic institutions 
and respect for the rule of law that reflects that greatness.
    The Tiananmen Square massacre was a turning point in China, 
but not for the better. With some notable exceptions, including 
last year's savage crackdown on Tibetans, the Chinese 
dictatorship has taken their ongoing Tiananmen behind closed 
doors, where torture has routinely brutalized inmates, to get 
them to sign confessions under duress, and often under that 
duress to provide additional names, because who can stand 
torture over the course of many days and weeks?
    The hard-liners have practiced the politics of violence 
against democratic activists, labor leaders, political 
prisoners, as well as religious believers, including and 
especially Falun Gong practitioners. Through forced abortion, 
mothers and children have suffered crimes against humanity. 
This is often the forgotten human rights abuse in China. 
Brothers and sisters are illegal in China, and this terrible 
crime against women, this gendercide, where young baby girls 
are targeted simply because they are girls, is widespread and 
pervasive.
    For our part, since Tiananmen the international community 
has failed, in my opinion. The United States has not done even 
near what we have been able to do, or should have done, to try 
to combat this gross violation of human rights that we have 
seen.
    The United Nations, for its part, pays more attention to 
Israel, tiny Israel--is obsessed with Israel--while it looks 
askance at the myriad of human rights abuses that are committed 
every single day by the Chinese dictatorship.
    Mr. Chairman, as you know, right before the Olympics, 
Congressman Frank Wolf and I traveled to China to try to raise, 
to bring some additional visibility, to these ongoing abuses, 
this Tiananmen Square massacre that continues behind closed 
doors each and every day. We had lists of prisoners, 730-plus 
prisoners, painstakingly put together by this Commission. We 
tendered that to the Chinese officials, and they as much just 
threw it out the back and said we're not interested. That is 
the reality. Yet, the Chinese diplomacy corps strides the 
earth, including in South America and in Africa, and seeks to 
provide additional influence in those countries, while their 
human rights record is despicable.
    The Olympics did not provide the hope that the Olympic 
Committee and others said it might, an easement, if you will, 
of human rights abuse. It has only led to additional 
crackdowns.
    Finally, Mr. Chairman, I have been trying for three years--
and I will continue to try--to get the Global Online Freedom 
Act up in front of my colleagues on the House side, and 
hopefully here on the Senate side as well, so that the enabling 
that groups like Google, Cisco, Microsoft, and Yahoo! have 
done--the enabling of dictatorships--will stop.
    Dictatorships need two basic aspects to survive and to 
flourish, and they can flourish in perpetuity if they're not 
combated: (1) secret police. Cisco has ensured that the secret 
police are very well-connected in China; (2) they have their 
hands on the tools of propaganda. We know that Google and the 
others have enabled the message, the propaganda message of the 
Chinese Government, to go forward while it has systematically 
blocked everything else, all aspects of human rights advocacy.
    I saw it myself, Mr. Chairman. Mr. Wolf and I went to an 
Internet cafe. We Googled just about everything we could think 
of, from the Dalai Lama to several leading names in the Chinese 
Diaspora and the human rights community. Every single one of 
them, including my own Web site, was blocked by Google. That is 
the everyday reality. They are getting the propaganda message 
that the dictatorship wants them to have.
    This is a great hearing that you have put together, Mr. 
Chairman, and I thank you for it. It is time to stop the 
naivete and the enabling, wittingly or unwittingly, and say 
this brutal dictatorship has to be held to account and we need 
to help the forces, the dissidents, the human rights activists 
that will have paid with their blood for freedom.
    I yield back.
    Chairman Dorgan. Thank you very much.
    Representative Pitts?
    [The prepared statement of Representative Smith appears in 
the appendix.]

 STATEMENT OF HON. JOSEPH R. PITTS, A U.S. REPRESENTATIVE FROM 
              PENNSYLVANIA, MEMBER, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Representative Pitts. Thank you very much, Mr. Chairman. 
Thank you for holding this very important hearing on the 20th 
anniversary of Tiananmen Square.
    This week, in a number of events, we pause to remember the 
lives of those who were tragically lost and the many who were 
imprisoned in the Tiananmen Square massacre. We commemorate 
their courage. We say to them, your stand for freedom will not 
be forgotten. Those peaceful student protesters, in their 
thirst for freedom, represent millions of people in China 
today.
    I remember well 20 years ago being spellbound, watching on 
TV as the student protesters in Beijing held peaceful 
demonstrations, calling for freedom and openness and dialogue. 
The government responded by declaring martial law. On June 3, 
military troops and tanks were deployed in the square. No one 
can forget the terrible massacre that ensued.
    The extraordinary image of a man standing unarmed in front 
of a row of China Type 59 tanks, preventing their advance, has 
become one of the most famous photos of the 20th century and 
will be forever ingrained in our memories.
    Yesterday I met with Mr. Fang Zheng, a student at the time 
who participated in the 1989 protest. He is with us today in 
the audience. On this very morning 20 years ago, he stood in 
the square, petitioning his government for freedom, when a 
military tank approached him from behind. Noticing a female 
student also in the tank's path, he ran to rescue her, and in 
doing so he was run over by the tank. Both of his legs were 
crushed by the tank and had to be amputated.
    Mr. Zheng did not lose just his legs that day, he also lost 
his right to speak openly and to live his life free of 
interrogation. Since the massacre, police have closely 
monitored and harassed him. He is a two-time gold medal-winning 
athlete, but the government has even gone so far as to forbid 
him from participating in the 2008 Special Olympics in Beijing 
in retaliation. The Chinese Government has not only failed to 
acknowledge the injustice endured by people like Fang Zheng, it 
has continued to cover up the truth and harass those who dare 
to speak out.
    Now, China has made significant progress toward economic 
reform, but sadly, political reform is still greatly needed to 
ensure the fundamental rights of the people. China has 
benefited greatly from opening its doors to trade, becoming one 
of the world's most rapidly growing economies, and it stands to 
benefit even more from creating an open and free civil society 
that respects freedom of religion, speech, and assembly.
    So today we call on China to release those who remain in 
prison because of their involvement in the Tiananmen Square 
protest, and we urge the government to open an official 
investigation into the killings and detainings that occurred as 
a result of the massacre. We urge them to stop the coverup, to 
acknowledge the events, and to release all of the prisoners who 
are still in prison as a result of that. Lastly, we encourage a 
dialogue between the government and the families of the 
victims.
    I would like to extend a special welcome to all of our 
witnesses. Thanks to each of you for your leadership, and we 
look forward to hearing your testimony on this very important 
issue.
    I yield back.
    Chairman Dorgan. Congressman Pitts, thank you very much.
    Congressman Wu, did you have a statement?

STATEMENT OF HON. DAVID WU, A U.S. REPRESENTATIVE FROM OREGON, 
      MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Representative Wu. Thank you, Mr. Chairman. I am not going 
to make a lengthy statement at all; I want to hear from the 
witnesses. I just want to emphasize that for self-government 
and for democratic government to thrive, it is very important 
to always remember, and to remember the truth, and to see the 
truth clearly.
    I yield back.
    Chairman Dorgan. Congressman Wu, thank you very much.
    I want to mention that because of other committee hearings 
and votes that will occur, we will have several other people 
who will have to take the Chair from time to time. But we 
really appreciate the opportunity to hold this hearing and the 
opportunity of the witnesses to be available for us.
    I want to begin with the witnesses, but first I want to ask 
those who are in the room who were part of the Tiananmen Square 
demonstration 20 years ago, if you would stand up.[Applause.]
    The Honorable Winston Lord, U.S. Ambassador to the People's 
Republic of China in 1985 to 1989, Special Assistant to then-
National Security Advisor Henry Kissinger, Mr. Lord played a 
significant role in the historic opening of China in the early 
1970s. In fact, he accompanied Dr. Kissinger on his secret trip 
to China, as well as subsequent trips by Presidents Nixon and 
Ford, and Dr. Kissinger.
    Mr. Lord was the Ambassador to Beijing under Presidents 
Reagan and Bush from 1985 to 1989. Mr. Lord served under 
President Clinton as Assistant Secretary of State, in charge of 
all East Asian policy, including China, from 1993 to 1997. 
Ambassador Lord served in China until April 23, 1989, at which 
time the student demonstrations were growing.
    Ambassador Lord, thank you very much for being with us. The 
complete statement of all of the witnesses will be made a part 
of the permanent record, and we will ask you to summarize.
    Ambassador Lord, you may proceed.

STATEMENT OF HON. WINSTON LORD, U.S. AMBASSADOR TO THE PEOPLE'S 
                  REPUBLIC OF CHINA, 1985-1989

     Mr. Lord. Thank you, Mr. Chairman.
    Before beginning, two brief tributes. First, to the members 
and staff of this Commission, who have maintained a meticulous 
record of what is really going on in China and have shone a 
searchlight on some of the dark shadows lurking there. I 
commend your work. Second, of course, above all, to those in 
this room and elsewhere who were at Tiananmen Square in the 
youth of their lives, including Mr. Fang, whom you mentioned.
    My wife and I knew many of these people. I left just as the 
demonstrations were taking full flight, for Hu Yaobang's 
funeral, on the 22nd of April. My wife covered the 
demonstrations for two months for CBS, and subsequently wrote a 
book about it. We still have great, vivid memories of those 
awful days, but also hope for the future.
    Mr. Chairman and members of this Commission, I am honored 
to participate in this commemoration of a most significant 
event in recent history. Someday, June 4, 1989, will be 
recognized as the seminal episode that evoked the political 
future of one-fifth of humanity.
    True, the Chinese authorities have shrouded, distorted, and 
defaced what happened in the seven weeks that led to the 
bloodshed in the square. True, the Chinese youth of today have 
scant knowledge, and even scanter interest, in how, two decades 
earlier, their age group stirred the hearts and minds of the 
people. True, Tiananmen anniversary demonstrations around the 
world have faded. Timid governments, visa-anxious academics, 
contract-hungry entrepreneurs tiptoe semantically. The 
Tiananmen massacre becomes ``the June 4 incident,'' if not ``a 
valid response to chaos.''
    History will render a just verdict. Let us recall what 
happened. Common descriptions of that spring suggest only that 
students marched in Beijing. Not true. Demonstrations 
flourished in over 250 cities and towns throughout China, and 
if students were the vanguard, people from all walks of life, 
as the Chairman mentioned in his opening statement--workers, 
peasants, teachers, merchants, journalists, lawyers, monks, 
police, soldiers, and Party members--championed them.
    In the capital, up to a million petitioned for 50 days 
without an act of violence, and indeed, any vandalism, unless 
one counts the paint sprayed on Chairman Mao's portrait.
    No wonder the amazing spectacle in the square inspired 
millions in Eastern Europe who went on to achieve more benign 
outcomes.
    For the Chinese people, the goddess of democracy symbolized 
not only the hope for greater freedoms, but curbs on corruption 
and inflation. Their requests were moderate: calls for dialogue 
with the government, not its overthrow. By the close of May, 
the petitioners camped in the square had dwindled to a few 
thousand. Surely the ending did not have to be tragic. But the 
red-faced patriarchs ruled to hammer home lessons and petrify 
the public. Twenty years later, no one yet knows how many were 
bloodied, maimed, or died in the massacre.
    Meanwhile, the Party drew firm conclusions.
    First, maintain a united politburo on sensitive issues, so 
far a success.
    Second, nip demonstrations in the bud. Despite a couple a 
hundred per day by even official account, the authorities have 
contained and isolated them.
    Third, gain legitimacy through prosperity and nationalism. 
Economic reforms accelerated after the massacre. To China's 
credit, their standard of living has risen continually and 
dramatically. The yuan, not Marxism and Maoism, is the 
ideological glue. So, too, is nationalism, which innately goes 
hand-in-hand with China's rise in the world.
    Finally, control the media. Here, too, the government has 
kept the lid on, screwing it tight on delicate topics. I share 
Congressman Pitts' concern about the cooperation of many of our 
companies in this enterprise and I trust his legislation will 
succeed.
    Still, media outlets press the envelope. The Internet and 
the cell phone haunt the party most. For every new censor, 
there are dueling bloggers and hackers. Today, their weapons 
are humorous double entendres. Tomorrow, what?
    To date, therefore, Beijing defies history. The emerging 
middle class and elite eschew politics, content to follow the 
Party's lead. The only checks and balances they hanker to 
expand are those held by their banks. Ironically, the most 
disaffected today are the peasants and workers.
    Evidently no Tiananmens lurk around the corner, but I have 
learned my lesson on predicting China's future. In 1989, I was 
overly optimistic, if not naive, about political reform. The 
depressing record of repression and human rights violations 
since then is amply documented by this Commission, the State 
Department, and international monitors. The grieving parents of 
Tiananmen, still harassed, still seek answers. The grieving 
parents of Szechuan now suffer the identical fate.
    Nevertheless, I remain convinced that China will move 
toward greater transparency and liberty, not as a concession to 
the West, but as the proven route to a brighter future. The 
rule of law, a thriving civil society, the accountability 
officials, freedom of the media and expression, would serve 
Beijing's own stated goals: economic growth, political 
stability, control of pollution and corruption, the improvement 
of ties with Taiwan and the United States, the heightening of 
its stature in the world.
    How fast, how smooth, how democratic, who can predict? No 
doubt, only Chinese can determine China's fate.
    Meanwhile, we should strive for positive relations with 
China despite this atrocious record. I have done so for 40 
years.
    Supporting human rights and democracy is a salient 
dimension of our policy, but America's vast and crucial agenda 
with China cannot be subsumed to one element. This is a 
painful, but prudent, calculation we apply to countries around 
the globe. With a Burma, or Sudan, our values can be our 
dominant preoccupation; with China or Saudi Arabia, we pursue a 
more nuanced course.
    In conclusion, therefore, let us encourage China toward a 
more liberal society by appealing to its self-interests.
    Let us cooperate with China on a host of bilateral, 
regional, and global challenges.
    Let us remain confident that one day the official verdict 
on June 4 will be overturned, that hooligans will be heroes, 
that black hands will be harbingers of history.
    For fabrications litter the ash heap of time, while 
authenticity survives. Zhao Ziyang was Premier, and then Party 
Secretary. He was sympathetic to the petitioners and against 
the launching of tanks. He wept in the square. He was thrown 
out of office and into house arrest for 16 years. He died in 
ignominy.
    And yet? On this 20th anniversary, his recordings speak 
truths. The journey toward freedom may begin with soft whispers 
from a solitary grave.
    Thank you, Mr. Chairman.
    Chairman Dorgan. Ambassador Lord, thank you very much for 
the really terrific testimony, and for your service for many 
years.
    We are joined by the Cochairman of the Commission, 
Congressman Levin. Congressman Levin, would you like to make a 
comment before we turn to the next witness?
    [The prepared statement of Mr. Lord appears in the 
appendix.]

  STATEMENT OF HON. SANDER LEVIN, A U.S. REPRESENTATIVE FROM 
  MICHIGAN, COCHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Representative Levin. Thank you very much. I am grateful 
for this opportunity to be here. The establishment of this 
Commission was an important step a few years ago and I think 
the efforts since then have reinforced the need for this 
Commission, and I do believe fervently that the hearing today 
is a further validation of its significance.
    I regret that because of two issues, health and energy, 
that I have had to be at another meeting and need to return, 
but I did have a chance to read your stirring testimony. 
Yesterday in the House, we passed a Resolution marking this 
anniversary, and it passed unanimously, except for one vote.
    I do think that it marks how vital it is that there 
continue to be a recollection and a confirmation of the meaning 
of those events and our determination, as constructively as we 
can, to bring some fruits out of that tragedy.
    So, Senator Dorgan, I am glad that you and I and our 
colleagues here, with the support of the leadership of the 
Senate and the House, on a bipartisan basis, are determined 
that this Commission continue to be a very vital part of the 
effort on human rights and the rule of law.
    So, again, I think I will ask, if it hasn't been done, that 
my opening statement be entered into the record.
    Chairman Dorgan. Without objection.
    Again, Congressman Levin, thank you for your leadership.
    Dr. Perry Link is a co-editor of the 2001 publication of 
the Tiananmen Papers. He is the Chancellorial Chair for 
Teaching Across Disciplines at the University of California-
Riverside. He received both his B.A. and Ph.D. from Harvard 
University and specializes in 20th century Chinese literature.
    Dr. Link, thank you very much for being with us. You may 
proceed.
    [The prepared statement of Representative Levin appears in 
the appendix.]

   STATEMENT OF PERRY LINK, CHANCELLORIAL CHAIR FOR TEACHING 
  ACROSS DISCIPLINES, UNIVERSITY OF CALIFORNIA-RIVERSIDE, AND 
 PROFESSOR EMERITUS OF EAST ASIAN STUDIES, PRINCETON UNIVERSITY

     Mr. Link. It's my pleasure. I join Ambassador Lord in 
congratulating this Commission on the fine work that you do. I 
have a written statement that is too long to read in the time 
that I have been given, so I will not.
    I would also like to offer for the record a translation of 
the Charter 08 that Senator Dorgan referred to a moment ago 
that I did for the New York Review of Books. This is an 
excellent statement of the political ideas of a broad range of 
China's leading free thinkers 20 years after the events at 
Tiananmen.
    There's one more item that I would like to put on the 
record, as it were, orally. That is that one of the harbingers 
of the 1989 events was an open letter that dissident 
astrophysicist Feng Lijur wrote to Deng Xiaoping, the top 
leader, on January 6, 1989. In that letter, Feng suggested that 
Deng declare an amnesty for political prisoners as a way to 
celebrate the anniversary spirit of the French Revolution and 
of the May 4 movement, China's May 4 movement of 1919, and to 
bring a healthier and happier atmosphere to China.
    At the end of the following month, February 1989, President 
George H.W. Bush visited Beijing and hosted a banquet to which 
Feng and his wife, Li Shuxien, were invited. As is well known, 
Feng and Li were blocked from the banquet and humiliated by 
Chinese plainclothes police for four hours.
    When this story hit the world's headlines the next day, 
Chinese leaders were intensely embarrassed, as of course they 
should have been. What we have found odd, though, since then, 
is some Americans who have commented on this, among my 
colleagues in the academic community and also in government, 
have chosen to assign blame not to the Chinese Government, who 
was showing itself both narrow-minded and boorish that evening, 
but to whoever it was inside the U.S. Embassy in Beijing who 
had initiated Feng Lijur's invitation to dinner.
    What I would like to enter into the record here is my own 
view--although it is not just my view, I know--that whoever 
that person was who initiated the idea of inviting Feng Lijur 
to dinner, he or she showed vision, integrity, and courage of a 
kind that echoes the finest traditions of our country.
    Now, for the remaining time that I have I am just going to 
go through seven points very quickly that are in my testimony.
    One, is that the movement at Tiananmen was deeper and 
broader than the Western media perceived it at the time. 
Ambassador Lord suggested this just a moment ago as well. There 
were demonstrations in more than 30 cities, large 
demonstrations, all across China. The movement was animated 
really more by a revulsion at state socialism, I think, than it 
was by attraction to Western ideas. That does not mean that 
Western ideas weren't attractive, they certainly were, but I 
think it is not appreciated how deeply this movement came out 
of the Maoist legacy and the state socialist legacy in China.
    My second point is that, was it a turning point? Yes, it 
was a turning point. Since then, as a broad generalization, the 
signal to the Chinese people has been: economics, yes, 
politics, no. By politics, there we need to understand broadly, 
ideals, political ideals, religious ideals, and so on.
    Point three is that this formula of economics, yes, 
politics no, led to what Chinese intellectuals have called a 
values vacuum, where the only publicly shared values that 
course through the whole society are money, moneymaking, and 
nationalism. These two kinds of values are too narrow to 
satisfy what the Chinese culture, for millennia, has sought in 
terms of shared ethical public values.
    That is my fourth point, that the thirst for ethical values 
in particular remains as a legacy of what happened that year. I 
study literature in my real life and in recent Chinese fiction, 
including television fiction, one finds a plethora of very 
heroic people who are not necessarily smart, but they are good 
people, they are honest, they tell the truth, they are willing 
to sacrifice their own interests for principle. These 
characters are very popular. The fact that they are popular 
tells us that there is this thirst, a widespread thirst, in 
Chinese society for pursuit of this kind of value.
    Point five, is that despite surface appearances, personal 
insecurity is a pervasive national malady in China--I don't 
have time to go into detail here, but I could--extending in 
different ways, all the way from ordinary people to the top 
leaders themselves.
    Point six. A portion of youth have internalized this 
formula of economics, yes, moral values, no. They play the 
system for their personal advantage and lack the idealism that 
earlier generations of Chinese youth, the teens in the 1930s, 
in the 1960s, showed. That is not to criticize them entirely; 
one has to understand the situation that they're in.
    So all of those points, points two through six, I believe 
are related to the turning point of the Tiananmen massacre.
    The final point I will make is that the main reason why we 
shouldn't forget what happened that year is that the 
fundamental nature of the regime has not changed. Much else has 
changed, and we could go into that, but that fundamental nature 
is the same.
    Thank you.
    [The prepared statement of Mr. Link and the Charter 08 
translation appear in the appendix.]
    Chairman Dorgan. Dr. Link, thank you very much for your 
perspective. We appreciate that.
    Next, we will hear from Dr. Susan Shirk, the director of 
the Institute on Global Conflict and Cooperation, University of 
California-San Diego.
    From 1997 until 2000, Dr. Shirk served as Deputy Assistant 
Secretary of State in the Bureau of East Asia and Pacific 
Affairs. She is currently senior advisor to the Albright Group. 
Dr. Shirk's books include ``China: Fragile Superpower,'' 
published in 2007.
    Dr. Shirk, thank you for being with us.

 STATEMENT OF SUSAN SHIRK, DIRECTOR, UNIVERSITY OF CALIFORNIA 
   INSTITUTE ON GLOBAL CONFLICT AND COOPERATION; HO MIU LAM 
PROFESSOR OF CHINA AND PACIFIC AFFAIRS, SCHOOL OF INTERNATIONAL 
  RELATIONS AND PACIFIC STUDIES, UNIVERSITY OF CALIFORNIA-SAN 
  DIEGO; AND ARTHUR ROSS FELLOW, ASIA SOCIETY CENTER ON U.S.-
                        CHINA RELATIONS

     Ms. Shirk. Thank you, Mr. Chairman. It's a privilege to be 
here and to share this commemoration of the heroism of the 
demonstrators 20 years ago and to remember the sense of 
possibility of peaceful political reform in China that was lost 
that day, or at least deferred for two decades.
    It was a turning point. I have longer testimony than I have 
time to read, so I will just briefly summarize some of the main 
points. It was a turning point for China's leaders, as well as 
its citizens. Perry Link has talked about this pervasive sense 
of insecurity on the part of China's leaders.
    In 1989, during Tiananmen and the demonstrations that 
occurred in more than 130 cities throughout China, the 
leadership split over how to manage the demonstrations, and the 
regime actually remained standing only because the military did 
follow Deng Xiaoping's orders to come in and use force to put 
down the demonstrations. After that day China's leaders have 
never slept well at night because they've had a pervasive sense 
that this could happen again.
    It is important to remember, in that very same year 
Communist governments in eastern Europe and in the Soviet Union 
started to fall; the Berlin Wall toppled in November 1989. 
Chinese leaders, with Tiananmen very much in mind, were 
watching this occur and thinking that they could very well be 
next.
    So today, two decades later, Communist rule has survived 
and the system, as Perry Link said, is fundamentally the same, 
but its leaders remain very anxious about the possibility of 
another revolutionary moment occurring.
    Now, to us outside of China, China looks like an emerging 
super-power, very powerful economically and influential 
internationally. But its Communist leaders feel much weaker as 
they struggle to stay on top of this society that has been so 
dramatically transformed by the market reform and opening over 
the past 30-plus years. So they have a pervasive sense of 
insecurity, and everything they do is aimed at prolonging their 
time in power.
    They drew three lessons from the Tiananmen experience. As 
we look at their domestic policy and their international 
policy, you can see that their choices are designed to follow 
these lessons of Tiananmen: first of all, to prevent large-
scale protests; second, to avoid any public splits in the 
leadership; and third, to keep the military loyal.
    Now, these lessons are interconnected because if the 
leadership can maintain its cohesiveness, then they are likely 
to be able to use repression, police power, as well as control 
over media, and co-optation in order to manage the protests. 
But if the leaders split on how to manage the protests, people 
will feel they have ``permission'' to protest and protests will 
continue and grow. And let us remember that these people are 
politicians, they are competing for power, and how do you 
prevent that competition from spilling out, outside the inner 
circle, in an effort to mobilize support? That is one of the 
greatest challenges that the Chinese leaders face today. Then, 
third, keep the military loyal, because if you have widespread 
unrest and the leadership splits, then the last line of defense 
is the People's Liberation Army, and the People's Armed Police, 
and having them come in to support the Party leadership.
    So what my testimony does, is go through these three 
lessons and describe how the leaders have managed to prevent 
large-scale protests and maintain a public face of unity among 
the leadership, and third, keep the military loyal.
    I just want to point out that it is a mixed picture. It's 
not simply the story of continued repression. In order to 
maintain themselves in power and prevent protests, they have 
become more responsive to the concerns of the Chinese public on 
such issues as tainted food and medicine, environmental 
quality, the demand for a social safety net such as healthcare, 
and they have improved the performance of the government in 
order to make sure that the public does not become so unhappy 
that they protest and challenge the leadership.
    They also have opened up the media in order to serve as a 
watchdog, especially on local officials. The central leadership 
may want to carry out policies to protect the environment, say. 
But local officials have different interests, and how do you 
check those local officials without elections and without civil 
society, independent, non-governmental organizations? From the 
standpoint of the leaders, it looks somewhat safer to use the 
media as a watchdog on those local officials. We do see a 
market-oriented media and an Internet which is playing an 
increasingly important role in China today.
    There is also institutionalization of elite politics in 
order to prevent public leadership splits, and of course 
increases in the defense budget in order to keep the military 
loyal. We often look at those increases in the budget as being 
driven by concern about Taiwan or other international 
objectives, but I think it is important to understand that 
there is a domestic political logic underlying it as well.
    So those are the three lessons that they drew from 
Tiananmen. The CCP's actions in order to maintain themselves in 
power has been a mixture of repression, co-optation, and 
improved responsiveness.
    Thank you.
    Chairman Dorgan. Dr. Shirk, thank you very much.
    I'm going to ask consent that the record contain a 
statement from John Kamm, the Executive Director of the Dui Hua 
Foundation. We had asked him to be present to testify, and John 
Kamm was not able to be here. So, we will include his statement 
in the record.
    Dr. Yang Jianli is president of the Initiatives for China 
and a Fellow at Harvard University's Committee on Human Rights 
Studies. During the spring of 1989, Dr. Yang traveled from 
U.C.-Berkeley to Beijing to support the student demonstrators. 
Subsequently, the Chinese Government, in 1991, refused to renew 
his passport, which had expired at that point.
    In 2002, using a friend's passport, Dr. Yang returned to 
China and was arrested and held incommunicado for over a year 
before he was eventually tried, convicted, and sentenced to 
five years' imprisonment for illegal entry into China and for 
espionage. Dr. Yang was released in 2007 and returned to the 
United States. He is a signatory of the Charter 08 and he has 
published many articles on democracy and human rights.
    Dr. Yang, we appreciate your courage and your willingness 
to continue to speak out, and welcome you to this commission.
    [The prepared statement of Ms. Shirk appears in the 
appendix.]

   STATEMENT OF YANG JIANLI, TIANANMEN PROTEST PARTICIPANT; 
 PRESIDENT, INITIATIVES FOR CHINA; FELLOW, HARVARD UNIVERSITY 
                   COMMITTEE ON HUMAN RIGHTS

     Mr. Yang. Thank you, Mr. Chairman. It is a great honor for 
me to testify here today, to provide the point of view of a 
Chinese human rights and democracy advocate. I'm not going to 
repeat what the other panelists have said. Twenty years ago, 
Tiananmen Square swelled with tens of thousands of Chinese 
students and citizens. They called for the Chinese leaders to 
address government corruption, protect individual rights, and 
allow transparency and public participation in policymaking. 
These reasonable requests conform with China's Constitution and 
law. However, on June 4, 1989, the petitioners were rewarded 
with machine guns and tanks.
    The massacre left thousands dead and injured, and thousands 
more imprisoned. Tiananmen Mothers have identified and 
documented 195 fatalities and, according to their assessment, 
``these are definitely not all, nor even a majority.'' Hundreds 
of activists fled China into exile and most of them, joining 
the existing overseas dissidents of China, have been 
blacklisted from returning home ever since.
    The massacre also set China's reforms down on the wrong 
path. If the recently published memoirs of Zhao Ziyang tells us 
anything, it is that we were so close to embarking on the road 
of peaceful transition to democracy, but now as then, very few 
people believe that China stood a real chance. The truth is the 
tragedy took place only because of four or five hardliners. The 
massacre created universal fear and universal cynicism in 
China, that, in turn, has resulted in a moral disaster, a human 
rights disaster, and an environmental disaster. These three 
disasters have in the past 20 years minimized the short-term 
cost of capitalists and that of government embezzlement. That 
is how China's economic miracle has become possible.
    The Chinese regime is a four-legged table. The regime will 
collapse should any one of the four legs be cut. One leg is 
fear, behind which is violence. One leg is untruth; the Chinese 
Government, for example, has kept the truth about the 1989 
movement and the magnitude of this tragedy from the ordinary 
people. One leg is economic growth; this is the only source of 
the legitimacy of its rule. The fourth leg is corruption; the 
Chinese Government exchanges the loyalty of the elite with 
opportunities for corruption. It has not only co-opted the 
Chinese elite but also the foreign elite who are the 
sinologists, the business people, and the policymakers. The 
Chinese Government appeals to the universal tendency for 
corruption, which conflicts with the universal value of human 
rights.
    This is the so called ``China's model'' and this model is 
now challenging the democratic way of life worldwide. The model 
is not sustainable for many reasons but primarily because the 
Chinese people will abandon it. One evidence being that every 
year there are hundreds of protests against corruption, such as 
the incident when Chinese people were outraged by tainted milk 
or by the tragic deaths of children in the earthquake. We also 
have seen a growing willingness to make public statements 
through publication, as is the case with the Internet posting 
of Charter 08 last December.
    People are eager to find a breakthrough point. A reversal 
of the verdict on the Tiananmen incident is widely considered 
one such breakthrough point. I agree. With this good intention, 
some democracy-oriented intellectuals have recently called for 
reconciliation with regard to the tragedy. I think the notion 
of reconciliation is very important; we sooner or later will 
have to come to terms with our troubled past. But putting forth 
the proposal of reconciliation now is premature; primarily 
because the Chinese Government has not even acknowledged any 
mistake in all this. One cannot reconcile to a non-event. The 
admission of the events of June 4 must precede any 
reconciliation. Rather than acknowledge the past events, the 
CCP continues on the path of untruth. It continues to persecute 
the victims and their families, tens of those known as ``June 4 
prisoners'' are still being imprisoned, no compensation has 
been made to victims or their families. The government remains 
a one-party repressive regime continuing to lie about the 
tragic events, to ignore the pleas from its own people and to 
demonstrate an unwillingness to listen. They repeatedly show us 
that they have no intention to change.
    The truth is not out. When it is, perhaps it will be 
through an impartial truth-seeking committee, one of the major 
demands from Tiananmen Mothers. It should be the regime, the 
more powerful party, not the victims that first raises up the 
issue of reconciliation. First an honest admission of the 
incident. Truth must be before reconciliation.
    The democratic forces in China are not strong enough to get 
the regime to sit at a negotiation table and begin a process 
toward the truth and toward reconciliation. And the regime has 
no willingness to engage in any such program because it has 
accumulated too many grievances of incredible magnitude. 
Tiananmen is just one of the many tragedies. So, to reach the 
end point of reconciliation, we must first develop the critical 
mass of democratic forces. This is necessary for any 
breakthrough. The key to reconciliation is the growth of the 
democratic forces in China.
    What the international community, particularly the United 
States, can and should do: First, we should put the Chinese 
regime on the defensive by raising the human rights issues on 
any occasion possible. It is the Chinese that should worry more 
about economic relationship with other countries. This is one 
of the four legs on which the Chinese Government stands.
    Second, we should nurture the growth of Chinese democratic 
forces. Third, we should help tear down the firewall that has 
been erected by the Chinese Communist Party [CCP]. If the 
United States is not in a position to face down the regime's 
violent forces--one of its four legs--it is most certainly in a 
position to expose its lies--another leg. Truth liberates.
    Fourth, when a movement similar to the one in 1989 arises 
national leaders in the United States should openly recognize 
and support the democratic forces and any democracy-oriented 
factions within the party. Had U.S. leaders had access to 
Zhao's memoirs beforehand, I believe they would have openly 
supported his faction during the Tiananmen uprising. The least 
the United States should do would be to press the CCP to enter 
into dialogue with the opposition leaders.
    Thank you.
    [The prepared statement of Mr. Yang appears in the 
appendix.]
    Representative Walz [presiding]. Well, thank you to each of 
our panelists. Very enlightening. We'll go to some questions 
here from each of us, but there's a couple of things. First of 
all, Dr. Link, I would like to say, you admitting being naive 
back in 1989 made me feel better. I, too, was right there and 
it seems like a lifetime ago when I remember the debate in the 
early 1990s over most-favored-nation status and how many of us 
thought that economic reforms would instantly translate into 
social reforms. It does seem like quite some time ago.
    I remember just a couple of years ago I asked Secretary 
Albright to characterize the U.S.-China relationship. She said, 
oh, it is really easy. It's like a drug user and a pusher, only 
we don't know which is which. It's very difficult. I ask this, 
Dr. Link, because I thought you brought up a very interesting 
point, having a newly-minted bachelor's degree holder, and 
someone who, my students said, spoke beautiful baby Mandarin, 
when I got there I watched and I saw the values, and trying to 
learn the culture.
    This issue you bring up is something I, too, notice. It's 
always very troubling for me because I don't want to pass 
judgment, but this values vacuum you spoke of is something that 
I find very troubling. I have seen it as my generation has aged 
into middle age and my friends in China, and I have seen this. 
I think many of them are reevaluating this, as many of us do, 
what's truly important.
    My question to you, as you think of it, I know it's 
incredibly subjective: what will fill that? How will that be 
filled? What's the outcome of that? Because a country with a 
values vacuum is troubling. Just to hear your thoughts on it.
     Mr. Link. Well, it's easy to say what some of the feeling 
has been already. There has been a revival of religions. 
Christianity has boomed in China. About 60 times as many 
Christians have been produced by this value vacuum than were 
produced by one century of American missionaries between 1850 
and 1950 going to make converts. Then Daoism and Buddhism have 
seen revivals. The problem here is that anytime someone 
organizes something that is not either controlled by, or 
controllable by, the Party, it gets crushed. Falun Gong is a 
good example of that.
    Representative Walz. The Falun Gong example.
     Mr. Link. But underground churches are good examples of 
that, too. So religions have been creeping back. I think some 
of the assiduous watching of these television programs is 
almost a communal thing, too. There's a wonderful television 
series called ``Xerbing Tudzhe'' about a soldier in the 
People's Liberation Army who's actually kind of mentally 
retarded. He's not smart, he's not fast, he doesn't shoot well, 
he doesn't do any of these things well, but he's honest and he 
tells the truth and he acts on principle. It becomes essential 
phenomenon to talk about him and to indirectly praise these 
values. That, to me, is pretty eloquent testimony for the kind 
of values seeking that I see that, again, can't be organized, 
but certainly is widespread.
    Representative Walz. And that hits that cultural nerve. 
What was it that we learned from Li Fong, that we all did, the 
soldier who selflessly gave the Cultural Revolution, that it 
was a sense of that, of trying to instill values from the top 
down.
     Mr. Link. That was top down. This is sort of mid-level 
media, up and down, I would say.
    Representative Walz. Thank you.
     Mr. Link. But it does show a popular thirst for ethical 
values. What eventually will fill it is still an open question, 
though.
    Representative Walz. Thank you.
    Dr. Shirk, two years ago now you wrote ``The Fragile Super-
Power.'' Has anything changed, in your mind? I always watched, 
over these last several years, when I would ask my friends 
every time I would travel back, especially over the last decade 
or so, what's going on, what are you doing, they said we're 
just watching you to see how a super-power acts. I thought to 
myself, gee, I don't know, necessarily. But what do you think?
     Ms. Shirk. Internationally China's influence has grown in 
the last two years. Its presence in Africa and Latin America, I 
talk about it in my book, but it has certainly become a much 
bigger story. Of course, in the global financial crisis, 
China's role is recognized and even deferred to. So 
internationally, China's influence has grown.
    Domestically, a couple of things have changed that are very 
significant. One, cross-strait relations with Taiwan have 
improved. This is very important from the standpoint of U.S. 
security interests because----
    Representative Walz. Do you think that is anything China 
has done or the lack--the opposition party in Taiwan is not 
nearly as----
    Ms. Shirk [continuing]. Well, President Ma Ying-jeou in 
Taiwan created the opportunity, but Beijing has exploited this 
opportunity by appointing a very able diplomat, Wang Yi, as 
head of the Taiwan Affairs Office. They have just gone full 
steam ahead for economic integration and moving as quickly as 
they can toward a kind of reconciliation. They've been trying 
to win the hearts and minds of the people of Taiwan, which is a 
positive dynamic, and it reduces the risk of a military 
conflict in the strait into which we could be drawn. So, it's 
very important from our security interests.
    But then the third thing I just want to point out is that 
the Tibet issue has become more prominent. I argue in my book 
that Chinese foreign policy on the hot-button domestic issues 
of Japan, Taiwan, and the United States are driven by the 
insecurity of China's leaders and their hyper-responsiveness to 
nationalist public opinion.
    Well, Tibet used to not be a particularly salient issue to 
the public in China, until those violent demonstrations last 
spring in Lhasa, which were all over the Internet in video and 
photographs. The pictures of Tibetans beating Chinese 
shopkeepers just infuriated the Chinese public, as did the 
disruption of the torch relay by Tibetan protesters in Paris. 
It became a very emotional issue of nationalism.
    What has been the result? It is very bad. Beijing now has 
elevated Tibet to a core issue of sovereignty, the same level 
as the way they treat the Taiwan issue. They have launched an 
international campaign to strong-arm everyone into isolating 
the Dalai Lama, and they are taking a very tough stand. This 
could become--I predict, unfortunately, it will become--a major 
obstacle to U.S.-China cooperation on other issues.
    Representative Walz. Well, thank you very much. My final 
question before my colleagues take over--this is probably the 
toughest one for all of you--is the criticism of spending time 
on these types of issues and looking back. Several days ago I 
was sitting down in a meeting with Prime Minister Erdogan and 
mentioned the Armenian genocide. Not a very happy subject with 
Prime Minister Erdogan. But I am absolutely convinced that 
getting these things out and getting them in a historical 
context that is as accurate as we can possibly get is 
important.
    What do you say to those people who say the work that is 
done by this great commission, and there is a great commission 
staff, on keeping the lists, the prisoners' list and things 
like that, is detrimental to those relationships? How would 
each of you, as experts with lots of experience respond? Why 
are we here today on June 4, and why is it important, as the 
Chairman said?
    So, Ambassador?
     Mr. Lord. Well, there are many reasons. I paid tribute to 
the Commission for all these reasons at the opening. First of 
all, we owe it to the people in China who are looking for 
greater freedom, not to mention those who sacrificed 20 years 
ago. We owe it to our value system. We owe it to maintaining 
domestic and congressional support for an overall policy of 
engagement with China, which I do favor. But if we engage with 
China and ignore these dimensions, we will lose support for 
that policy.
    We owe it because promoting human rights and democracy--and 
that is one of the reasons why one should remember what did 
happen--is in our national security interest, as well as 
promoting our values. The fact is that more democratic 
countries and those who observe the rule of law and human 
rights are much better partners on the world scene. Democracies 
do not fight each other. Democracies don't spawn refugees, they 
don't harbor terrorists. They are better economic partners. 
They don't cover up swine flus and SARS and tainted milk.
    So there are very concrete reasons to keep this as part of 
our agenda beyond just the values which are traditional in our 
foreign policy. Thus, I think it is very important, what you're 
doing, and it's very important that this remain, as I said in 
my statement, a major part of our policy with China. It is 
painful, just as it is, say, with Saudi Arabia and their 
treatment of women, and even North Korea, where we can't get 
progress on any subject, where you have to sometimes assign 
higher priorities to other issues. I'm afraid that's prudent. 
I'm afraid you have to do it, because much as I believe 
strongly in promoting human rights and democracy, it cannot 
dominate our agenda with some of these big, important 
countries. But it is an essential part of that agenda.
    Representative Walz. Thank you. If anyone else wants to 
take that, otherwise I'll move to Mr. Smith.
    Representative Smith. Thank you, Mr. Chairman. I again want 
to thank this very distinguished panel for your insights and 
your wisdom at this hearing, but really through the course of 
your lives. So many of you have spent so much time thinking 
what ought to be done and it makes a difference.
    Let me just ask a couple of questions. Ambassador Lord, I 
do thank you for your comment about the Global Online Freedom 
Act, and suggesting that it may eventually get done. 
Unfortunately--and I have been here 29 years as a Member of 
Congress--I am not as optimistic about my own bill because the 
Googles and the other Internet giants have spread money ad 
nauseam on this place and in other places in town to prevent 
that legislation from coming to the Floor. It was ready for 
floor action last Congress.
    It is ready right now, having gotten through all three 
committees of jurisdiction, only to be held up and never 
brought to a floor vote. Just for those who may not be familiar 
with it, that legislation is all about providing or promoting 
non-violent political speech and non-violent religious speech. 
That is what is in the bill. It would provide for a very 
serious accounting.
    What is it that Google is censoring, working hand-in-glove 
with the propagandists in Beijing, that allows the people in 
China right now who would love to know, on June 4, what 
happened 20 years ago, from getting that basic information 
without getting the big lie, if you will, that they do get each 
and every day. So your help, any of your help in getting that 
legislation through would be of enormous impact.
    I would note that some of the giants, including Yahoo!, 
have taken some corrective action, especially in Vietnam, where 
they put personally identifiable information, information that 
could so easily be gleaned by the secret police, outside of the 
control of Vietnam and in another country. Now the secret 
police can't walk in the door and say, we want to know 
everything about Shi Tao and to whom he's talking.
    That was in direct relationship to a previous remembrance 
of Tiananmen Square, as you all know so well, and Shi Tao got 
10 years in prison after Yahoo! coughed up all those names. 
Well, at least they have learned, and I think they are to be 
applauded for taking that action. But, unfortunately, others 
have not taken corrective action and it continues to be a 
serious problem. So, we appreciate any help you can give us.
    Despite the good work that has been done in busting through 
this new bamboo curtain, if you will, this new censorship is 
stifling. As we all know, if you go online in China and you put 
in your information, if you do something, like talk about the 
Dalai Lama, within an hour or so they'll be at your door--that 
is to say, the secret police. They could hold onto control 
forever, I think, with that kind of censorship--so your help on 
that legislation is appreciated.
     Mr. Lord. May I comment on that?
    Representative Smith [presiding]. Ambassador Lord? Sure.
     Mr. Lord. First of all, in terms of getting the truth into 
China, I want to take this occasion to urge that we expand 
funding for Radio Free Asia [RFA] and Voice of America [VOA]. 
That is something the Chinese block and so on, but it does get 
through. They do terrific reporting on China for its people and 
what is happening there indirectly to us. So, that is one 
specific step that I strongly urge: not just maintain, but 
expand this. It is money well spent and related to the issue 
you're talking about.
    One final comment on the computer companies. I think 
there's different degrees of culpability here. I don't agree 
with this completely, but I see the dilemma of some of the 
companies where they say, by having these Web sites, Google, 
and search engines in China, even if they're partially blocked, 
it is subversive and over the long run it can be helpful, even 
if it's not perfect. If we don't do it, the Europeans or the 
Japanese will do it. That's not a frivolous argument, that part 
of the rationale, in terms of submitting themselves to some 
censorship.
    Then you've got people providing hardware to help the 
police. That's unacceptable. Then you have people giving up 
email addresses and getting people run down. That's not 
acceptable. So I think there are some distinctions here. To be 
candid, I'm not familiar with the latest specific portions of 
your bill--and I'd like to look at it--but I do think there are 
some tougher dilemmas on part of this spectrum of issues than 
on other parts.
    Representative Smith. I appreciate that. We have worked 
with a coalition of human rights organizations, and Chinese 
human rights organizations especially, and it's been endorsed 
by virtually all of them, Reporters Without Borders, and 
others. Your point is well taken, there are gradations.
    But I think when we're talking about an active 
disinformation campaign--for example, when Manfred Nowak did 
his incisive inspection of the use of torture, the pervasive 
use of torture by the Chinese Government, his findings were 
totally blocked online by the Chinese. But you can get Manfred 
Nowak's commentary on Gitmo and you can get other publications 
he has done, but not the one about China. Google is a part of 
that. VOA and Radio Free Asia are blocked by Google as well, I 
know because I tried to get their sites, and others have tried 
it. In China, they block it. Yes? Please.
     Mr. Yang. We all agree, nationalism in China is 
phenomenal. But if you get online, look at what the Internet 
users say, mostly the younger generation people in China, you 
will find a pattern. When it comes to the issue of local 
issues, maybe domestic issues like government corruption, 
people will side with the victims. When it comes to the issue 
of the relationship with the United States, the across-the-
strait relationship, and Tibetan issues, the Internet users 
will very likely side with the Chinese Government. Why? 
Information. Because people in China, when it comes to the 
issue, domestic issues, local issues, they just base it on 
their experiences to make a judgment.
    But for the issues of the international relations and 
Tibetan issues and any issues like that, very largely they are 
based on the information provided by the Chinese Government. So 
in that way, for a long time they have been brainwashed. So I 
think Internet freedom is a very important issue. Actually, 
technology exists to bypass the firewall erected by the Chinese 
Government. So modest investment will make much progress in 
this field. Thank you.
    Representative Smith. Unfortunately, House Members need to 
leave for a vote. But let me ask, and maybe for the record you 
can give an answer, when you talk about next steps, we have had 
20 years of thinking, naively, but I think with good faith, and 
I believe it, that trading would lead to a matriculation from 
dictatorship to democracy. Has that not happened?
    I believe it has gotten demonstrably worse and now they're 
spreading these errors to Africa, as Dr. Shirk pointed out. I 
held two hearings on Africa--on China's influence on Sudan, 
Zimbabwe, and other countries with egregious human rights 
records; they're fleecing Africa of its minerals, its wood. I 
can go on and on.
    But it's time to revisit things like reestablishing a trade 
link or some kind of link. There's no penalty phase. China gets 
away, literally, with murder. It attacks its women in the worst 
violation of women's rights, I believe, in the history of human 
kind with its forced abortion policy. And they get more money 
from the United Nations, rather than less, money from the UN 
population fund.
    Egregious behavior cannot be rewarded or we'll get more of 
it, no matter how insecure these individuals happen to be. The 
Nazi leadership, we know from historians and psychiatrists who 
have looked back, were very insecure men, men with phobias and 
problems. That made them even more dangerous in the execution 
of their policies. We have the same thing happening in China, 
and they are expanding rather than contracting.
    PNTR [permanent normal trade relations] shouldn't be PNTR 
anymore. It needs to be revisited, I would suggest, 
respectfully. This is an unbridled bully. I have many other 
questions. IRFA, the International Religious Freedom Act; 
they've been on that list for five, almost six years with no 
penalty phase ever from the Bush Administration, nor now from 
the Obama government. Thank you. If you'd like to touch on next 
steps, I'd appreciate it.
     Mr. Link. Maybe I can jump in here. This is sort of a next 
step, and it is also a second to Ambassador Lord's plea for 
more funding for RFA and VOA. It's also a sort of answer to the 
question of why this Commission's work is important. In 
addition to everything that's been said, I think that public 
articulation of our values, not arrogantly and pushing it on 
people, but articulation of it, is important.
    Now, an authoritarian regime like China's wants to say in 
response, just do this privately. Don't say these things 
publicly. Let us tuck it in our pocket and talk about it. That 
doesn't work. I think that the articulation of values publicly 
works not only for those Chinese citizens that are eagerly 
wanting to hear it, like the signatories of Charter 08 and like 
the other people in this room. It also works for the people 
inside the authoritarian system. I don't know what my friend 
Susan would say, but this is part of what I mean by the 
insecurity of the people inside the system. They, too, have 
many levels in their psychology and they're obliged, in 
official contexts, to hew to the Party line, to the government 
line. I'm going to tell you one very quick anecdote to 
illustrate this and then I'll yield the floor back.
    A few years ago I edited this compilation called 
``Tiananmen Papers'' with my friend Andy Nathan, which 
immediately was highly radioactive in Beijing. They didn't like 
it at all. They said, this is illegal and the people that did 
it had bad motives. He, I, and many others were denounced that 
were in connection with it.
    A few months later, a delegation of Chinese academics, a 
high-level delegation, came to Princeton where I was teaching 
at the time to talk about academic exchange. We had a cordial 
lunch. After lunch, they came to my office and one of them 
excused himself to go to the men's room. As soon as he did, the 
other one said, do you have a copy of the ``Tiananmen Papers? 
'' Can you give it to me? Yes, I can. Okay. Here it is. I 
signed it for him.
    Then he said, do you have a manila envelope that you could 
put it in? Because he didn't want his colleague coming back--
they were friends in other ways, but that man was genuinely 
interested. There are levels in the psychology of the people 
that are inside the system to whom we speak when we articulate 
our values, even though they can't give us, and won't give us, 
an immediate response to it. So I find it baffling sometimes 
that we are not more relaxed, but open about articulating our 
public values.
    Representative Smith. Dr. Shirk?
     Ms. Shirk. One quick word. That is that I think something 
we could do that would be very constructive would be to spend 
more money helping promote legal system development and the 
free press and civil society in China, which will be the 
foundation for an effective democracy if one is ever to develop 
in China. I understand why we have restrictions on the money we 
can spend because we feel it as a matter of principle we 
shouldn't support the Chinese Government. But the time has come 
for us to reduce those restrictions. If you compare what we do 
in China compared to other smaller countries, it is much less 
even though the need is very great in China. Congress could 
help a lot by allowing the U.S. Government to help support the 
development of China's legal system, civil society, and free 
press.
    Representative Smith. Thank you.
    Ms. Kaptur?

  STATEMENT OF HON. MARCY KAPTUR, A U.S. REPRESENTATIVE FROM 
   OHIO, MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Representative Kaptur. Thank you very much, Mr. Chairman. I 
wanted to also thank Chairmen Dorgan and Levin for this 
opportunity to remember, with all of you, the Tiananmen Square 
massacre.
    I just wanted to put two minutes of formal testimony on the 
record since I wasn't here initially, and look to the degree 
that China has not changed its policies in the last 20 years. I 
thank you very much for your testimony. Despite what many laud 
as progress in China, obviously the Commission's research shows 
that a number of cases demonstrating the 1989 mentality remain.
    The protesters two decades ago presented a list of seven 
demands, including elections, admission of past government 
mistakes, independent press, and free speech. Today, with a 
number of Tiananmen participants still imprisoned, and some in 
the audience with us today who have paid the price of free 
expression, we have seen little progress on these fronts.
    In fact, we have seen labor, expression, and other human 
rights deteriorate. In the past few days, China has further 
restricted freedom of speech by blocking Web sites like Flickr 
that may describe the actual events of 1989, and though the 
Chinese have still not given in to the protesters' demands, the 
protests are still fresh in the government's mind.
    In the United States, however, though we know the full 
extent of the tragedy of that day, we, too, are keen to forget. 
President George H.W. Bush implemented a number of sanctions as 
a result of the Chinese Government's heinous reaction to the 
protests, and since 1989 all but a few have been effectively 
revoked, either by a wholesale or consistent case-by-case 
basis.
    Indeed, one of the very few so-called Tiananmen sanctions 
still in force to any degree puts export controls on crime 
control devices, but is waived in a wide variety of cases, 
despite the Chinese Government's documented use of these 
devices against dissidents. For example, after the United 
States allowed various crowd control devices in for the U.S. 
Olympics, including cameras, Keith Bradsher reported, ``The 
autumn issue of the magazine of China's Public Security 
Ministry prominently listed places of religious worship and 
Internet cafes as locations to install new cameras.''
    Although China has made little progress toward meaningful 
elections or freedom of expression or basic human rights for so 
many protesters who gave their lives and livelihoods, our 
country appears to make few demands for true reform, while 
sending American jobs and tax dollars abroad and borrowing to 
unprecedented levels, supporting that closed economy and strict 
authoritarian regime.
    In fact, many attribute directly the weakening of labor and 
human rights to the United States granting permanent normal 
trade relations [PNTR] to China--relations I do not regard as 
``normal'' at all, but highly abnormal--which also led to the 
wholesale repeal of a number of the Tiananmen sanctions.
    So I want to commend the Commission, and all of you, for 
revealing the course that China has followed and the progress 
it has yet to make on the human rights and democracy front.
    I have a few questions I would like to ask.
    Dr. Shirk, I wanted to ask you, before PNTR was passed you 
stated that you believe that most favored nation would give the 
United States more tools to address human rights. So I would be 
very interested to ask you today, what are these new tools that 
you thought might occur as a result of PNTR when the debate 
occurred here in the Congress? What has resulted? What are 
these new tools?
     Ms. Shirk. The tools are largely the channels of 
communication and cooperation at every level between our two 
countries, starting from every agency in the Federal Government 
that has some programs or dialogues with counterparts in China. 
For example, our Department of Labor went to China, bringing 
the ideas of free organization of labor to China just a couple 
of years ago. So at every level in the government, in our 
Federal Government, we have those kinds of channels.
    Also, I'm sure in your State, your district, there are many 
more interactions at the sub-national level, too. For example, 
in California, the State of California is cooperating with a 
number of provinces in China on climate change issues and 
helping develop capacity to verify and monitor actions that we 
hope will be taken in the future on climate change.
    Then, of course, the amount of investment in China has 
absolutely skyrocketed after China's entry into the World Trade 
Organization. So you have all of those international companies 
and their employees and people going back and forth, and cross-
strait interactions with Taiwan. All of those kinds of contacts 
in the long run do make China a more open place, a more 
responsive place. I don't think any of us argued that PNTR and 
China's entry to the World Trade Organization were going to 
achieve full-fledged democracy in China overnight. I admit that 
progress has been slow, but I think there has been progress 
nonetheless.
    Representative Kaptur [presiding]. What kind of body 
politick is China today where there is no democracy, but there 
is a type of state-run capitalism? How does one describe that 
polity? Some of you have called it Communism, but what is it? 
Dr. Link, what about yourself? Ambassador Lord?
    Mr. Link. Nicholas Kristof had a clever phrase. He called 
it ``market Leninism,'' which is sort of a new animal on the 
world political scene. I think the Russian polity is evolving 
in that direction. It doesn't have the label ``Communist,'' but 
domination of a political economic elite that is corrupt--I'm 
not ready to go point-by-point. I came from a hearing this 
morning where we were comparing these and parallels were 
striking to me, but I can't recall them one-by-one now.
    Representative Kaptur. How many members of that political 
elite are there?
     Mr. Link. Well, it depends on how far down the tip of the 
iceberg you want to measure the elite.
    Representative Kaptur. The top 25 percent.
     Mr. Link. Pardon?
    Representative Kaptur. The top 25 percent. How many 
individuals would you say are in that, what is described in 
your testimony as ``masters of the regime? ''
     Mr. Link. Well, I knew just a few dozen families.
    Representative Kaptur. A dozen.
     Mr. Link. Interlocking families. Yes. In that testimony, 
that's what I meant by that, yes.
    Representative Kaptur. I'm being given a signal. I have to 
run back to the House and vote, and I will return. But I'm very 
interested in all of the witnesses stating for the record, and 
I will ask the Staff Director to sit up here in our absence, to 
struggle with us over the issues of democracy and capitalism 
and what kind of society China is today.
    I was very taken by the numbers of young people being 
recruited into the regime and what that bodes for the future. I 
do not for a minute believe that capitalism brings democracy, 
it's the other way, at least a capitalism that we know is free, 
or even partly free and open.
    But I am very troubled about what I see, and I am very 
troubled by the statement made in Ambassador Lord's formal 
statement, ``With a Burma or Sudan, our values can be our 
predominant preoccupation, but with a China or Saudi Arabia, we 
pursue a more nuanced course.'' Does that mean a valueless 
course? What are our key values as a society? I'm very 
interested in each of you talking about, politically, what type 
of society China is today. Marxist? How did you describe that? 
Leninism?
     Mr. Link. Market Leninism.
    Representative Kaptur. Market Leninism. How each of you 
would describe the society today. Then in terms of what kind of 
political economy, what kinds of values does that political 
economy have today globally? What does it represent? It 
obviously does not represent freedom, so what is it? What is it 
galloping toward from a value standpoint, a political value 
standpoint? I would be very interested in your comments on 
that.
     Mr. Lord. Have you got time now or do you have to leave?
    Representative Kaptur. Well, I am going to let you, 
Ambassador Lord, answer that question for the record and we 
will come back.
     Mr. Lord. These are big questions and there's not much 
time here. But first of all, China so far has defied history, 
as I said in my statement. In other examples--for example, 
Taiwan and South Korea----
    Ms. Oldham-Moore. Excuse me, Mr. Lord. As you know, the 
Constitution requires them to vote, and we have a series of 
votes in the House. The Chair, I hope, will return by 4 
o'clock. He also has another hearing he is chairing right now.
    So Ambassador Lord, if you could respond to her question.
     Mr. Lord. Yes.
    Ms. Oldham-Moore. And also I sense that you wanted to talk 
about the description of the body politick.
     Mr. Lord. Yes. As I started to say, in examples like 
Taiwan and South Korea, once the economic engine got going, you 
brought up a middle class, then man or woman does not live by 
rice alone, if you will, and there was pressure for political 
liberalization. That's what all of us hoped, 20 years ago, 
would happen in China.
    So far, as I said in my statement, a combination of 
repression, great economic growth, and an appeal to nationalism 
has allowed China to actually carve out a unique path. I would 
agree with Perry Link, on the political side it is still 
Leninist. On the economic side, it is partly capitalist, partly 
socialist, and partly state-run. So it's a unique phenomenon.
    So the question is, how long can they defy history? Have we 
found something new? This is a very important question, because 
if China's model does prevail, that's going to set a very 
unfortunate example for other countries around the world. So we 
have a real interest in hoping that China does evolve in a more 
politically liberal direction, and that the Indias of the world 
are not discredited, while the Chinas of the world triumph.
    I remain optimistic, as I said, because I don't think the 
Chinese can defy the laws of history forever. They have done it 
longer than I thought possible. Without taking the time it 
deserves, let me just tick off the reasons why I think, over 
time, China will evolve. I think it's going to come from the 
bottom up. I strongly support what Susan Shirk said about 
building up civil society. That's about the best we can do at 
this point, in addition to articulating, privately and 
publicly, our values and our concerns and funding VOA, RFA, and 
some of the other steps that have been mentioned.
    But it seems to me in an age of information and 
globalization, China can't go on forever trying to censor the 
Internet and flows of information and manage to segregate out 
various topics. At some point they're going to pay a price for 
the lack of information and freedom. Also, if you do not have 
the rule of law, at some point you're going to lose 
investments. So, therefore, economic growth is going to depend, 
I think over the long run, on a freer society. They cannot get 
at corruption without a freer press or the rule of law, and 
that is crippling them. So at some point, in their own self-
interest, they are going to have to move for economic reasons.
    Second, political stability. If people can't go to the 
courts, if they can't go to a free press, if they can't elect 
their officials, the only alternative if they have gripes--and 
it doesn't have to be about political freedom; it could be 
about the environment or local land grabs or pollution--then 
they take to the streets. So in terms of political stability, 
there has got to be a safety valve.
    If China wants Taiwan to get closer, beyond economics, and 
reunify, that will never happen as long as Taiwan is a 
democracy and China is repressive. If they want full-fledged 
relations with us that can equal, say, those with Japan or 
Great Britain, we have got to share values as well as 
interests. The Chinese want strong ties with the United States 
and to lift their stature in the world.
    So on all their major goals--economic growth, political 
stability, ties with Taiwan, ties with the United States--
they're going to have to move in this direction. I'm not going 
to naively predict, as I did 20 years ago, that it will come 
soon, but I think it will come, and I think we can encourage it 
with some of the steps we have all discussed today.
    Ms. Oldham-Moore. You all have watched our China policy for 
a very long time. One of the critiques of our human rights 
policy has been that it has been ``ghettoized,'' and run out of 
a small division in the State Department. Therefore, it has not 
been taken seriously by the Chinese, or by our own leadership 
at times.
    What is your assessment of this view? Do you think that 
more of our leverage on these issues resides in other branches, 
other departments such as Treasury? The Strategic Economic 
Dialogue is occurring this July. Many issues which inherently 
concern the rule of law will be considered in that forum. I 
would just be interested in your view on a better architecture 
for U.S. foreign policy toward China in regard to raising rule 
of law and human rights concerns? Dr. Yang, do you have any 
thoughts?
     Mr. Yang. Yes. I want to talk about it in general terms, 
first. As far as I see, the U.S. policy toward China has a 
major problem, and that is inconsistency. It changes so quick, 
so many times. A lot of people think engagement with China, 
with the human rights issue openly, creates resentment among 
the Chinese people, which is not true. It is inconsistency that 
has actually damaged the U.S. image among the Chinese people.
    So I think public articulation of this country's values has 
no problem with the Chinese people. If the United States has a 
consistent policy toward China and shows its sincerity in this 
field, I think eventually it will win the respect of the 
Chinese people. So I would say consistency is a key word.
    Ms. Oldham-Moore. Thank you.
    Dr. Link, do you have anything on that?
     Mr. Link. Well, I think Dr. Shirk is better at this 
question of the American Government and how to unify policy 
within the government.
     Ms. Shirk. I think our rule of law initiative is too small 
and that we have bound our hands because of a distaste for 
cooperation with the Chinese Government, a political distaste. 
I think we should have a much more expansive effort because 
China has itself said that it wants to have rule of law, that 
rule of law is important for their own objectives.
    In fact, their legal system lacks autonomy, lacks 
professional capabilities. It is at a very early stage of 
developing an independent autonomous legal system. The 
Europeans and other countries have a lot more active programs 
than the United States does, and that is also to the detriment 
of our commercial interests because they will end up following 
other legal systems other than our own.
    Ms. Oldham-Moore. Thank you.
     Mr. Yang. I want to add a few words.
    Ms. Oldham-Moore. Yes. We have five more minutes. Yes.
     Mr. Yang. Three conditions must be present to effect 
political change in China: (1) viable opposition; (2) crisis; 
(3) international support. So I don't know why so many people 
are afraid of talking about opposition. I think a part of U.S. 
policy toward China must be nurturing the growth of opposition 
in China. Democracy forces, if you will. Opposition may be too 
harsh a word. But without that, I don't see there is a 
possibility for China to change. So I always call for open 
engagement with democratic forces in China.
    Democratic forces in China, for a long time, have not been 
visible, but the most significant thing about Charter 08 is now 
people are organizing around Charter 08 and the opposition is 
visible. I do not think a lot of people do not like opposition. 
Democracies in China are visible and we have to help them to 
become viable, become a force that can apply necessary pressure 
on the regime to have a political change.
    Ms. Oldham-Moore. Dr. Shirk, you're shaking your head.
     Ms. Shirk. I think that's actually a pretty dangerous 
policy, to nurture an insurgency or a democratic opposition 
overtly in China. It would be a suicidal policy for U.S.-China 
relations. I also think that it would undercut the potential of 
such an opposition if it is viewed as somehow just the puppets 
of the United States. Unfortunately, our leverage is very 
limited. The demand for political reform in China has to be 
domestic, primarily.
    Ms. Oldham-Moore. Do you have anything to add, Ambassador 
Lord?
     Mr. Link. There's a big distinction in my mind between 
speech and action here. If we're going to go in and organize a 
resistance, I would agree with Dr. Shirk, that's going to be 
counterproductive. But it doesn't follow from that that we 
shouldn't be open in speaking about ideas and ideals and 
speaking with all of the Chinese people, not just with the 
government.
    Representative Kaptur, as part of her question, referred to 
young people joining the regime and she seemed worried about 
that. The young people who are joining the Party these days, as 
far as I can figure it out, are doing it for very personal, 
practical reasons. It is pretty far removed from any ideals, 
not only about Communism or Marxism, that's way in the past, 
but even public ideas that the Party now is promoting. Most of 
them are more cynical than that. They're joining the Party 
because it's the ladder up. That is part of what I mean by that 
group of people in Chinese society, too, being insecure and 
multi-leveled, and can be spoken to openly. I still think 
that's the best policy.
    Ms. Oldham-Moore. I think we have the topic for our next 
hearing,
     Mr. Yang. But Ambassador Lord, you take the last one.
     Mr. Lord. I quickly want to get at that question on 
promoting democracy and human rights. Two points. First, to get 
to your question, it has got to be consistent throughout the 
U.S. Government. It cannot just be the State Department. I had 
a painful experience in the early 1990s where we had modest 
conditions on trade with China, and the State Department was 
pushing it. It was the President's policy. His own economic 
Cabinet officers totally undermined it and the President didn't 
back up the Secretary of State. The Chinese saw we were 
disunited, and the modest progress we were making with these 
modest conditions went down the tubes and we had to reverse 
course.
    Therefore, you have got to have a consistent message across 
the government. It can be in strategic dialogues, where you 
have many ministers and Cabinet officials in the same room. 
It's important that we're all singing from the same tune.
    Now, second, she took exception to my saying we need a 
nuanced policy with a Saudi Arabia or with a China. It is 
painful, but prudent. As I said in my statement, Mr. Obama is 
pursuing this approach, e.g. when he was in Saudi Arabia, and 
now in Egypt. This man is clearly for democracy, but he has got 
to worry about other issues. So I do not apologize for a very 
uncomfortable double standard we have to apply.
    When it is Burma, we don't have many other interests, but 
when you are trying to fight terrorism or not have nuclear 
weapons get around the world, or fight crime or pollution, or 
maintain American jobs, these are concrete interests that we 
have. We can't just throw them away for one other interest, as 
much as we would like to.
    Ms. Oldham-Moore. Thank you. Thank you so much to our 
panelists. It was extremely stimulating testimony. Thank you 
for having mercy on me in my promotion, however unexpected. 
We'll have the transcript of this full hearing on our Web site. 
Due to Judy Wright, our Director of Administration, we have a 
Web cast as well.
    Thank you so much.
    [The prepared statement of Mr. Kamm appears in the 
appendix.]
    [The prepared statement of Dr. Minxin Pei appears in the 
appendix.]
    [Whereupon, at 4 p.m. the hearing was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


             Prepared Statement of Ambassador Winston Lord

                              june 4, 2009
    Mr. Chairman, Members of the Commission:
    I am honored to participate in this commemoration of a most 
significant event in recent history. Someday June 4th, 1989 will be 
recognized as the seminal episode that evoked the political future of 
one fifth of humanity.
    True, the Chinese authorities have shrouded, distorted, and defaced 
what happened in the seven weeks that led to the bloodshed in the 
Square. True, the Chinese youth of today have scant knowledge and even 
scanter interest in how two decades earlier their age group stirred the 
hearts and minds of the people. True, Tiananmen anniversary 
demonstrations around the world have faded. Timid governments, visa-
anxious academics, contract-hungry entrepreneurs tip-toe semantically: 
The Tiananmen massacre becomes the ``June 4th incident,'' if not a 
valid response to chaos.
    History will render a just verdict. Let us recall what happened. 
Common descriptions of that spring suggest only that students marched 
in Beijing. Not true. Demonstrations flourished in over 250 cities and 
towns throughout China. And if students were the vanguard, people from 
all walks of life--workers, peasants, teachers, merchants, journalists, 
lawyers, monks, police, soldiers and Party members--championed them. In 
the capital up to a million petitioned for fifty days without an act of 
violence, indeed any vandalism--unless one counts the paint sprayed on 
Chairman Mao's portrait.
    No wonder the amazing spectacle in the Square inspired millions in 
Eastern Europe who went on to achieve more benign outcomes.
    For the Chinese people, the Goddess of Democracy symbolized not 
only the hope for greater freedoms but curbs on corruption and 
inflation. Their requests were moderate--calls for dialogue with the 
government, not its overthrow. By the close of May, the petitioners 
camped in the Square had dwindled to a few thousand. Surely the ending 
did not have to be tragic. But the red-faced patriarchs ruled to hammer 
home lessons and petrify the public. Twenty years later no one yet 
knows how many were bloodied, maimed or died in the massacre.
    Meanwhile, the Party drew firm conclusions.
    First, maintain a united Politburo on sensitive issues. So far, 
success.
    Second, nip demonstrations in the bud. Despite a couple hundred per 
day by even official count, the authorities have contained and isolated 
them.
    Third, gain legitimacy through prosperity and nationalism. Economic 
reforms accelerated after the massacre. To China's credit, the standard 
of living has risen continually and dramatically. The Yuan, not Marxism 
and Maoism, is the ideological glue. So too is nationalism which 
innately goes hand in hand with China's rise in the world.
    Finally, control the media. Here, too, the government has kept the 
lid on, screwing it tight on delicate topics. Still, media outlets 
press the envelope. And the Internet and the cell phone haunt the Party 
most. For every new censor, there are dueling bloggers and hackers. 
Today, their weapons are humorous double entendres. Tomorrow, what?
    To date, therefore, Beijing defies history--the emerging middle 
class and elites eschew politics, content to follow the Party's lead. 
The only checks and balances they hanker to expand are those held by 
their banks. Ironically, the most disaffected today are the peasants 
and workers.
    Evidently no Tiananmens lurk around the corner. But I've learned my 
lesson on predicting China's future. In 1989, I was overly optimistic, 
if not naive, about political reform. The depressing record of 
repression and human rights violations since then is amply documented 
by this Commission, the State Department and international monitors. 
The grieving parents of Tiananmen, still harassed, still seek 
answers. The grieving parents of Sichuan now suffer the identical fate.
    Nevertheless, I remain convinced that China will move toward 
greater transparency and liberty--not as a concession to the West but 
as the proven route to a brighter future. The rule of law, a thriving 
civil society, the accountability of officials, freedom of the media 
and expression would serve Beijing's own stated goals: economic growth, 
political stability, the control of pollution and corruption, the 
improvement of ties with Taiwan and the United States, the heightening 
of its stature in the world.
    How fast, how smooth, how democratic--who can predict?
    No doubt only Chinese can determine China's fate.
    Meanwhile, we should strive for positive relations with Beijing. I 
have done so for forty years.
    Supporting human rights and democracy is a salient dimension of our 
policy. But America's vast and crucial agenda with China cannot be 
subsumed to one element. This is a painful but prudent calculation we 
apply to countries around the globe. With a Burma or Sudan our values 
can be our dominant preoccupation. With a China or Saudi Arabia we 
pursue a more nuanced course.
    Let us encourage China toward a more liberal society by appealing 
to its self-interests.
    Let us cooperate with China on a host of bilateral, regional and 
global challenges.
    And let us remain confident that one day the official verdict on 
June 4th will be overturned, that ``hooligans'' will be heroes, that 
``Black Hands'' will be harbingers of history.
    For fabrications litter the ash heap of time while authenticity 
survives. Zhao Ziyang was Premier and then Party Secretary. He was 
sympathetic to the petitioners and against the launching of tanks. He 
wept in the Square. He was thrown out of office and into house arrest 
for sixteen years. He died in ignominy.
    And yet? On this 20th Anniversary, his recordings speak truths. The 
journey toward freedom may begin with soft whispers from a solitary 
grave.
                                 ______
                                 

                    Prepared Statement of Perry Link

                              june 4, 2009
    I wish to alter our question, slightly, to ``What is the 
significance of the crackdown that ended the demonstrations?'' I do 
this because it is the crackdown more than the demonstrations 
themselves that has made a profound difference in shaping the China 
that we see today.
    First we must understand that the 1989 demonstrations sprang from 
discontent that was much deeper and broader in Chinese society than the 
feelings of some students at elite universities who had become enamored 
of Western political ideals. There were, that spring, large 
demonstrations in more than 30 Chinese cities; these protests were 
usually led by students, but workers and many kinds of other citizens 
supported them broadly. The major complaints were about corruption, 
special privileges for the political elite, and the urban ``work unit'' 
system that was restricting personal freedoms and was seen as holding 
China back. The 1989 movement was a nationalist movement in an 
important sense. And it was animated much more by revulsion against 
Chinese state socialism than by attraction to foreign ideas.
    For the Chinese Communist Party (CCP), the challenge of the 1989 
upsurge was how to handle it (stifle it, adjust to it, accommodate it--
or a combination) while continuing to serve the Party's top priority, 
which was, and still is, monopoly political power. The Party offered 
the Chinese people a new bargain in the 1990s: make money, in almost 
any way you can, and we will also allow you more personal freedoms in 
your daily lives; but you may not challenge CCP power in public and may 
not form organizations--political, religious, or otherwise--that the 
CCP does not monitor and (if it chooses) control. In short: money, yes; 
politics no.
    The Chinese people have accepted this bargain and it is hard to 
blame them for doing so. Freedom in one sphere of life, after all, is 
better than freedom in no sphere. People pursued what they could, 
worked hard, and have greatly improved their material lives. At the 
same time the consequences of rejecting the bargain were set out in 
unmistakable terms, beginning with the 1989 massacre itself. Why did 
the regime use tanks and machine guns in 1989, instead of tear gas, 
water hoses, or (as it did in breaking up the April 5, 1976 Tiananmen 
protests) billy clubs? The use of overwhelming force with bloody 
consequences served to put an exclamation point on the regime's message 
of ``no more politics!'' In the ensuing months, policies of mandatory 
military service for students, ``patriotic education'' in textbooks and 
schools, and thoughtwork in the media aimed at consolidating the new 
formula.
    The regime was very successful in the 1990s in turning the latent 
nationalism of the 1989 movement into an explicit version of 
nationalism that served CCP interests. The message that ``to be a 
patriot is to support the Party'' was constantly stressed in the media, 
in textbooks, in bids for the Olympic Games (as well as the eventual 
staging of the Games), and in conflicts, real and imagined, with 
``foreign forces'' such as Japan, the United States, and the Dalai 
Lama. By the end of the 1990s, money-making and nationalism were the 
dominant public values in Chinese society, and both were strong.
    But this left the society with a badly distorted value system. It 
is a deeply-rooted assumption in Chinese culture--and ``Confucian'' 
cultures generally--that a society needs values that are both ethical 
and public. In the mid-1990s Chinese intellectuals began to speak of a 
``values vacuum'' because they found this kind of public morality to be 
missing. In recent years Chinese popular fiction has made clear a 
strong appetite among the public for characters who--as if in 
contradiction to the society that readers live in--are honest, sincere, 
decent, and ready to do what is right even if it is not in their 
material self-interest. During the same years China has seen revivals 
of religion--Christianity, Buddhism, Islam, Taoism, and others--but the 
project of letting religions lead the way to shared public values has 
been frustrated by CCP repression, which happens any time a religious 
organization is seen to be wandering outside Party control. Chinese 
people continue today with their frustrating search for public ethical 
values, and personal insecurity remains a problem among people at many 
levels of society. These problems must be viewed as important long-term 
consequences of the 1989 repression.
    The generation of people now in their teens and twenties comprise 
an important special case. This generation has grown up with the 
``money, yes; politics, no'' bargain, and many have internalized the 
formula so well that it seems to them simply odd--counterintuitive--to 
work for political ideals when one could be pursuing self-interest 
instead. (The focus on self in this generation is reinforced by the 
fact that almost all of them, at least in the cities, have grown up 
without siblings.) For them, allegiance to the Party is built on self-
interest. It would be a mistake to view them as deeply committed to 
Party principles; they could veer in other directions in the future.
    Few among the young have very clear ideas about what happened in 
1989 or much desire to dig deeply into the question. Their education 
has taught them that the events were only an ``incident'' caused by 
troublemakers and that ``the Chinese people'' long ago reached a 
``correct historical verdict'' and have moved on. In this generation, 
the Party policy of distorting the record and inducing amnesia has 
largely succeeded.
    But among the middle and older generations, much remembering 
continues. The families of victims of course remember, and people like 
Ding Zilin, head of the Tiananmen Mothers group, have done courageous 
work to help these families ``come out'' with their painful memories. 
Many others--not themselves victims but direct or indirect witnesses--
also continue to remember, if only privately. The June Fourth massacre 
remains a festering sore in Chinese political culture.
    Among those who certainly do remember are the top leaders 
themselves. Why else would early June be declared a nationwide 
``sensitive period'' year after year? Why else would the regime 
dispatch a bevy of plainclothes police, during these sensitive periods, 
to accompany the 72-year-old Ding Zilin as she goes out to the market 
to buy vegetables? To ``protect her'', as they put it? Clearly not. The 
purpose is to protect themselves, the masters of the regime, from the 
power of the ideas that this elderly woman symbolizes. It is hard to 
imagine a clearer demonstration that memories of 1989 are alive in the 
minds of the men on top.
    For the past twenty years critics of the 1989 repression have been 
calling on the regime to ``reverse the verdict'' on it. This would 
mean, in essence, declaring that the Tiananmen demonstrations were a 
``patriotic'' movement--not, as in the official formulation that has 
held for twenty years, ``anti-Party and anti-socialist''. It would also 
entail an admission that the military repression was a ``mistake.'' So 
far the Party leaders have rebuffed demands for ``verdict reversal'', 
and it is likely for the foreseeable future that they will continue to 
rebuff them. For critics of the repression, the important issues are 
that truth should be acknowledged and justice should be done. Not so 
for the regime leaders. For them, the key question (always their key 
question) is whether ``reversing the verdict'' would add to or detract 
from the Party's grip on power. On the one hand, to admit to the truth 
and make amends with aggrieved parts of the populace would reap a 
certain harvest in popular support; on the other hand, it would entail 
admission that the regime had made a serious ``mistake,'' and this 
admission might endanger the claim to monopoly power. The top leaders 
are aware, too, that certain ones of their own number could use the 
``mistake'' at Tiananmen as a political weapon to discredit rivals, and 
the possibility remains that this kind of opportunism might appear some 
day. But there is no current sign of it, and for now a verdict-reversal 
appears highly unlikely. Beneath the surface, though, the issue 
continues to fester and shows little sign of healing.
                                 ______
                                 

                  Prepared Statement of Susan L. Shirk

                              june 4, 2009
    Ever since 1989, Chinese leaders have been haunted by the fear that 
their days in power are numbered. The massive prodemocracy protests in 
Beijing's Tiananmen Square and 132 other cities nearly ended communist 
rule in China. The regime was shaken to its roots by six weeks of 
student protests and the divisions within the Communist Party 
leadership over how to handle them. The regime remained standing only 
because the military followed Deng Xiaoping's order to use lethal force 
to crack down on the demonstrators.\1\
---------------------------------------------------------------------------
    \1\ This essay draws on the author's book, China: Fragile 
Superpower (New York: Oxford University Press, 2007).
---------------------------------------------------------------------------
    Just months after the crackdown, the Berlin Wall was torn down, a 
popular uprising overthrew the Romanian communist dictatorship, and 
communist regimes in Eastern Europe were toppled in rapid succession. 
The Soviet Union itself, the strongest communist power the world had 
ever seen, collapsed two years later. China's leaders watched with 
horror and had every reason to believe they could be next.
    Today, two decades after the ``life-and-death turning point'' of 
Tiananmen, Chinese Communist rule has survived, but its leaders remain 
anxious about the possibility of another revolutionary moment. To 
foreigners, China appears like an emerging superpower, strong 
economically and influential internationally; but its communist leaders 
feel much weaker as they struggle to stay on top of a society roiled by 
thirty years of market reform and opening to the world. They have a 
deep sense of domestic insecurity and perceive latent political threats 
all around them.
    Since 1989, everything China's leaders do is aimed at preventing 
another Tiananmen. They are fixated on what they call ``social 
stability.'' They use that euphemism to convince the Chinese public 
that Communist Party rule is essential for maintaining order and 
prosperity, and that without it, a country as large as China would 
descend into civil war and chaos.
    Although never publicly articulating it, the Chinese Communist 
Party has devised a formula for survival based on the lessons they drew 
from the Tiananmen experience. First, prevent large-scale protests. 
Second, avoid public leadership splits. And third, keep the military 
loyal to the Party.
    The three rules are interconnected. If the leadership group remains 
cohesive despite the competition that inevitably arises in it, then the 
Party and the security police can stop the protests from spreading and 
challenging the regime. Unless people receive some signal of 
``permission'' from the top, protests are likely to fizzle out or be 
extinguished before they grow politically threatening. But if the 
divisions among the top leaders come into the open as they did in 1989, 
people will take to the streets with little fear of punishment. Then, 
if the military splits too, or refuses to use armed force to defend the 
Party leaders, the entire regime could collapse. For the past twenty 
years, with the specter of another Tiananmen crisis haunting them, 
China's leaders have worked hard to shore up all three fronts--social 
quiescence, elite unity, and military loyalty.
                           social quiescence
    The fear of large-scale protests that could topple the Communist 
Party has made economic growth a political imperative for China's 
leaders. They calculate that the economy must grow at a certain annual 
rate (7 or 8 percent) to create enough jobs to prevent widespread 
unemployment and labor unrest. Today, when they acknowledge an 
unemployment rate approaching double digits (9.4 percent), you know 
that for them, a stimulus that effectively restores jobs is their 
highest political priority.
    As protests have increased in number over the past two decades, the 
jittery leaders have sought to protect themselves by demonstrating 
their responsiveness to public concerns. Premier Wen Jiabao, 
accompanied by television crews, rushes to disasters like the 2008 
massive snowstorms and Sichuan earthquake, to dramatize the 
government's compassion and competence; on camera, he apologizes for 
mistakes, tearfully expresses sympathy for victims, and directs rescue 
efforts. Individual officials are promptly fired for government 
failures or corruption once they become publicized by the media. 
Government responsiveness is more than just a show. Anxieties about 
unrest have spurred the central government to address problems that 
anger the public, such as taxes on farmers, environmental pollution, 
tainted food and medicine, and inadequate healthcare. But local 
officials do not have the same interests as the central leaders in 
Beijing. Local officials care more about rapid growth and big 
construction projects that enable them to build political machines and 
line their pockets by doling out patronage. Getting the local bosses to 
implement central policies is a persistent dilemma for central leaders. 
Rent-seeking behavior by local leaders that outrages citizens could 
endanger the survival of Communist Party rule.
    The possibility of gradually introducing direct elections from the 
bottom-up as Taiwan successfully did has been on the table for decades, 
but remains stalled at the village level. Since 1989, the CCP 
leadership has felt that its hold over society was too tenuous to risk 
losing control over the selection of officials, which is the linchpin 
of Party rule. Political reform efforts have instead focused on 
creating non-institutionalized substitutes for elections like 
petitioning or public hearings.
    In the absence of elections, national officials increasingly rely 
on the media and Internet to serve as watchdogs over local officials. 
They have learned that when they suppress news of epidemics like SARS, 
tainted food and medicine like the melamine in baby formula, 
environmental disasters like the poisoning of rivers by chemical 
plants, it aggravates crises. The trend is to allow the media to report 
problems--official mouthpieces like the Xinhua News Agency are 
beginning to publish exposes and reporting protests--but to spin the 
coverage so the public is persuaded that the government is competently 
solving problems.
    Worries about political unrest also cause China's leaders to do 
everything they can to impede organized collective action against the 
regime. They view any independent social organization, no matter how 
innocuous and non-political it may be, as a potential threat. Every 
organization must be licensed and its leadership approved by the 
political authorities. Many organizations, such as the Falun Gong, 
unregistered churches, and labor organizations, are declared illegal 
and suppressed. Even in the environment and public health space which 
is relatively more open, NGOs operate under tight political 
constraints. Collective petitioning is discouraged. And many 
petitioners who find their way to Beijing are detained and then shipped 
home as trouble-makers.
    To co-opt the groups who are most likely to oppose Party rule, and 
the individuals most likely to become the leaders of an opposition, the 
Communist Party has made a big push to recruit college students and 
private businesspeople as members. College students are the most 
rapidly growing group within the Party. In 1990 only 1.2 percent of 
college students were CCP members, but as of 2003, 8 percent of them 
were members, and the percentage has continued to rise. For political 
activists who are not susceptible to co-optation, including the urban 
lawyers who are helping rural people assert their rights in court, the 
CCP contains their influence by harassing them, putting them under 
house arrest, or sending them to prison.
    The Internet has become an arena for virtual collective action 
particularly among young people. Netizens organize petitions online and 
form Internet mobs called ``human flesh search engines'' that gang up 
on individuals accused of corruption or other crimes. Party leaders, 
who feel too insecure to simply allow Netizens to vent, go all-out to 
prevent online activism from spilling over into the streets. Using 
ingenious filtering technologies, site managers who screen and censor 
postings, paid stooges who post pro-government views, and career 
incentives to encourage self-censorship, the Party maintains a 
surprising degree of control, but not air-tight control, over Internet 
content.
    At the same time, China's leaders are hyper-responsive to media and 
online public opinion and try to deflect it from targeting them. For 
example, when newspaper and Internet opinion strongly attacked as too 
lenient a sentence of life imprisonment for an organized crime figure 
convicted of several crimes, Party leaders pressed the 
Supreme Court to review the case, and the crime boss was executed the 
same morning. In a more positive example, the media outrage over the 
beating to death of a young college-trained migrant in Shenzhen who 
been picked up by the police for not carrying a temporary residence 
permit led the central government to abolish the detention system for 
migrant workers.
    CCP leaders are particularly sensitive to nationalist criticism 
focused on the hot-button issues of Japan, Taiwan, and the United 
States. Nationalism is intensifying in China, in part as a spontaneous 
expression of China's revival as a powerful nation and in part as a 
result of the Communist Party's efforts to enhance its legitimacy and 
build popular support for itself. China's leaders are well aware that 
the previous two dynasties, the Qing and the Republican government, 
both fell to revolutions in which the various discontents of different 
rural and urban groups were fused together by the powerful emotional 
force of nationalism. They want to make sure that the same fate doesn't 
befall them. For example, when Chinese Netizens reacted with outrage 
against the March 2008 violent attacks by Tibetan protesters against 
Chinese shopkeepers in Lhasa and the feebleness of the government's 
response, the leaders defended themselves by vilifying the Dalai Lama 
and intensifying their diplomatic campaign to isolate him 
internationally. Foreign policy related to Tibet and other issues that 
arouse popular nationalism is motivated in large part by political 
self-defense.
    Whenever protests over domestic issues do break out, Beijing has a 
standard approach to containing them: The central leaders deflect blame 
away from themselves to local officials; buy off the demonstrators by 
satisfying their economic demands, and punish the organizers. Local 
police sometimes enlist local citizens as a kind of police auxiliary to 
keep order by beating up demonstrators.
    CCP strategies for averting another Tiananmen constitute a mixture 
of responsiveness, cooptation, and coercion. So far these strategies 
have succeeded in keeping protests small scale, localized, and not 
targeted on the central government or Communist Party. But China's 
Communist Party leaders continue to worry that a crisis, or a 
politically significant anniversary of a historical event like 
Tiananmen, might be the spark that ignites a firestorm of opposition to 
CCP rule.
                              elite unity
    The CCP leaders appear to have learned the lesson of Tiananmen. If 
they don't hang together, they could hang separately, as the Western 
saying goes. Still, each individual politician has moments of 
temptation, when an interest in gaining more power for himself might 
cause him to exploit a crisis situation and reach out beyond the inner 
circle to mobilize a mass following, as many Chinese officials believe 
that Zhao Ziyang attempted to do during the Tiananmen crisis (Zhao 
denies this charge in his recently published memoirs.) Large protests 
increase the risk of a split by showing leaders that a following is 
already in place and forcing them to take a stand on the protests. 
Social unrest actually can create schisms at the top. The danger is not 
a matter of the particular personalities in the Party leadership at any 
one time, but is built into the structure of communist systems. Changes 
in the mass media heighten the risk of the public being drawn into 
elite disagreements. Leadership splits telegraphed to the public 
through the media or over the Internet have triggered revolutionary 
upheavals in other authoritarian regimes. To reduce this risk, the CCP 
bans all reporting of leadership competition or decision-making at the 
top, even though the Hong Kong media has provided lively and sometimes 
accurate analyses of Beijing politics for many years. It was big news 
recently when the Chinese media were permitted to report that the CCP 
Politburo held a meeting and some of the topics it discussed. No 
Mainland newspaper or website dares publish leaks about was actually 
said at the meetings, however. The handful of journalists who have 
dared violate this taboo were accused of leaking state secrets and 
imprisoned.
    Beginning with Deng Xiaoping, CCP leaders have sought to reduce the 
risk of destabilizing splits by introducing institutional rules and 
practices that bring greater regularity and predictability to elite 
politics. Fixed terms of office, term limits, and mandatory retirement 
age regularize leadership competition. When Jiang Zemin, having reached 
the age of seventy-seven, retired as CCP general secretary (2002) and 
president (2003), it was the first time that a leader of a large 
communist country had ever handed down power to a successor without 
putting up a fight of dying. As the price of retirement, Jiang managed 
to hang on to his job as head of the Central Military Commission. But 
without the institutional authority of the top Party post, Jiang's 
influence began to evaporate, and two years later in September 2004, he 
retired completed. During the two years when Jiang and Hu shared power, 
subordinate officials were uneasy. The last time China had had two 
different voices coming from the leadership they caused the near 
disaster of the Tiananmen crisis. Anxious to prevent a repetition, 
senior and retired leaders reportedly convinced Jiang that the best way 
to preserve his legacy was to retire completely.
    Today's top leaders--President Hu Jintao, Premier Wen Jiabao, and 
the seven other members of the Politburo Standing Committee--constitute 
an oligarchy that strives to prevent divisions among themselves, or at 
least to hide them from the public. The current leaders lack the 
personal charisma or popular following of their predecessors Mao Zedong 
and Deng Xiaoping. They are comparatively colorless organization men 
who came up through the Party ranks and are more or less 
interchangeable and equal in stature. So far, at least, they have shown 
themselves willing to subordinate themselves to the group to maintain 
the Party's hold.
    The authority of Hu Jintao, and Jiang Zemin before him, as the 
number one leader who fills the three top positions--CCP General 
Secretary, President, and Chairman of the Central Military Commission--
is sharply circumscribed. The top leader is only first among equals in 
the senior leadership, reversing the decades of domination by the top 
leader as the ``core'' of the leadership. Judicious balancing of major 
institutional constituencies--the party apparatus, government agencies, 
and representatives of the provinces--in the Politburo and its Standing 
Committee is aimed at inhibiting any one group from dominating the 
others.
    On the surface, relations within the CCP's inner circle appear 
impressively smooth. There is no daylight between the public positions 
of the top leaders even in the face of the tension created by China's 
current economic downturn and this year's important political 
anniversaries. In 2007, the oligarchy managed to get agreement on the 
next leadership succession which should occur in 2012-13. Xi Jinping 
and Li Keqiang were selected to succeed President Hu Jintao and Premier 
Wen Jiabao respectively when their terms expire; if not challenged, 
these two men will be leading China until 2022-23. (In what other 
country could we identify the individuals who will be in charge so many 
years into the future?)
    Despite all that Chinese leaders have accomplished in 
institutionalizing and stabilizing politics at the top, they know that 
maintaining the unity of oligarchic rule remains a difficult challenge. 
That is why they strive to keep elite politics inside a black box, well 
hidden from public view. But in a society undergoing explosive change, 
political outcomes are unpredictable because the political game is 
evolving too. Every day new opportunities present themselves to 
ambitious politicians in China. Keeping leadership competition under 
wraps is becoming increasingly difficult as the media and Internet 
compete for audiences by testing the limits on what they can report. 
Nationalism is a natural platform for an ambitious politician who wants 
to build a public reputation. We should anticipate the very real 
possibility that an international or domestic crisis in the text few 
years could tempt a challenger to reach out to a public following and 
challenge the status quo.
                            military loyalty
    The People's Liberation Army (PLA) has been a key player in Chinese 
politics since before the founding of the People's Republic in 1949. 
During the Revolution, the People's Liberation Army and the Chinese 
Communist Party were practically merged. Mao Zedong, Deng Xiaoping, and 
other CCP leaders served as commanders, and the top generals were 
members of the CCP Politburo.
    When Deng Xiaoping led China, he was so confident of the loyalty of 
the PLA that he squeezed it financially in order to concentrate on the 
civilian economy. Deng encouraged the PLA to become a more professional 
force, but he didn't provide the resources to accomplish it. Official 
defense spending stayed almost flat during the 1980s at a time when 
investments in the domestic economy were dramatically increasing. If we 
factor in inflation, defense spending actually declined in real terms 
to the point by the late 1980s that PLA budget chiefs confessed that 
the official budget could only meet around 70 percent of the military's 
actual spending requirements. The number of soldiers was cut almost in 
half, from 4.5 million in 1981 to 2.31 million in 2001. By cutting the 
size of the bloated military, China's capabilities got stronger. But at 
the same time, military units were told to earn money by running 
businesses to ease the financial burden on the state.
    In 1989, when CCP rule was threatened by widespread protests and 
divisions within the leadership, Deng turned to the military to save 
the Party and end the crisis. And with only one exception, the PLA 
units obeyed Deng's orders and turned their tanks and guns against the 
students.
    Today's leaders have not served in the military, and cannot count 
on its automatic allegiance. Hu Jintao, like Jiang Zemin before him, 
lavishes resources on the PLA to make sure that he can count on it to 
defend him. Defense spending has risen in real terms and as a 
percentage of GNP since 1999. Official military spending has increased 
at double-digit rates up to the present.
    The PLA is enjoying bigger budgets in large part because today's 
leaders are less politically secure and have a greater need to win the 
military's allegiance. The strategic justification for increasing the 
military budget in the late 1990s was that China was preparing to solve 
the Taiwan problem militarily if need be. The emergence of 
democratically elected presidents in Taiwan who appeared to be moving 
the island toward formal independence provided the main impetus. At 
present, trends across the Taiwan Strait are moving in the direction of 
reconciliation, but new missions related to protecting Chinese imports 
of oil, gas, and other resources over the sealanes of communication 
give the PLA a new rationale for acquiring advanced naval and air 
capabilities. Yet reinforcing these international justifications is the 
logic of domestic politics that Mao Zedong identified many years ago 
and that was dramatized in Tiananmen, i.e. ``political power grows out 
of the barrel of a gun.'' Since 1989, China's insecure leaders have 
placed a high priority on keeping the military well-funded, satisfied, 
and loyal.
                the political significance of tiananmen
    Today, twenty years after the Tiananmen crisis, most Chinese 
citizens probably have forgotten all about it, or been kept ignorant of 
it because of the official silence imposed by the Chinese Communist 
Party. Only a small minority of politically aware citizens are focused 
on the significance of the event.
    The memory of Tiananmen is felt most intensely by China's leaders 
who still worry that it could happen again. As the twentieth 
anniversary approached, the leaders revealed how insecure they are by 
tightening press and Internet censorship and blocking former protest 
leaders now living abroad from visiting the Mainland or Hong Kong. But 
the leaders' efforts to avert another Tiananmen go much beyond these 
recent actions. They are reflected in the larger patterns of Chinese 
politics that have extended the lifespan of Party rule for two decades: 
namely, the mixture of responsiveness, cooptation, and coercion the 
leaders employ to avert large scale protests and maintain social 
quiescence; the institutionalization of elite politics designed to 
prevent elite competition from breaking out into the open and 
mobilizing a mass opposition; and the generous military budgets 
intended to guarantee that should all else fail, the army will loyally 
defend the Party.
                                 ______
                                 

                     Prepared Statement Yang Jianli

                              june 4, 2009
    I wish to make the following statement regarding the significance 
of the 1989 Demonstrations in China and their implications for U.S. 
Policy today.
    It is important to understand why events of June 4th, 1989 occurred 
as they did. China started market oriented reform in 1978. Three 
results soon came from this economic reform. First, fast growth. 
Second, it led to the negation of the CCP's revolution and the 
legitimacy of the CCP regime itself. The purpose of the revolution and 
the communist new regime was to destroy capitalism and establish 
socialism. Now that you have got rid of socialism and reintroduced 
capitalism, don't you have to admit the revolution was a mistake? 
Therefore, economic reform is not the self perfection of the revolution 
and of the one-party dictatorship, but their negation. The third result 
is corruption. As economic reform went, official business dealings and 
manipulations thrived, and corruption became more widespread. The 
widespread corruption caused widespread discontent and became a reason 
for the 1989 democracy movement.
    The 1989 democracy movement had two slogans. One was ``freedom and 
democracy,'' and the other was ``no official business dealings, no 
corruption.'' The 1989 
democracy movement caused unprecedented split within the CCP 
leadership. The moderate faction led by Zhao Ziyang was opposed to 
martial law and crackdown. At that time, a quarter or even a third of 
the officials in Beijing joined the protesters. Most of the rest also 
were sympathetic towards the students. Such was the degree of the 
split. However, Deng Xiaoping cruelly suppressed the democracy movement 
with the army. Why did Deng suppress the democracy movement? Is it 
because he still believed in socialism? No. Not at all. Deng stopped 
believing in socialism a long time before. Deng's aim was solely to 
maintain CCP's autocratic power.
    The June 4th massacre set the reforms in China down the wrong path. 
During the first year or two after the massacre, as a result of the 
dramatic changes in Soviet Union and East Europe, the CCP was very 
anxious and fearful. To maintain their power, CCP leaders proposed 
guarding against ``peaceful evolution.'' They opposed capitalism not 
only politically, but economically as well. As a result, economic 
reforms came to a sudden halt and even backslidden.
    Yet, in the spring of 1992, Deng Xiaoping proposed accelerating 
economic reforms without asking whether they were socialist or 
capitalist. He clearly understood that the socialist economic system 
was not working, and ending reforms meant running into a dead end. He 
knew that, after June 4th and the changes in Soviet Union and East 
Europe, socialist ideology was all but dead, and the CCP regime lost 
its ability to cheat in this regard and could rely only on naked 
violence. In this situation, it was impossible, and unnecessary, to 
maintain a socialist facade. Violence had its advantages. It required 
no pretense and therefore was subject to no restraint. Earlier economic 
reforms were handicapped by the fear of being labeled capitalistic. Now 
the fear was gone, and more capitalist elements could be introduced. In 
this way, China's economic reforms moved faster and further after 1992.
    Because the democratic forces in the CCP and the nation were 
suppressed after June 4th, the economic reforms in China after 1992 
unavoidably became privatization among the powerful. In the name of 
reform, government officials of all ranks morphed into capitalists; 
assets owned by the people as a whole became private 
assets of officials. Such reform could not have happened without the 
June 4th massacre. In the reform of publicly owned companies, for 
example, hundreds of thousands of workers were laid off and given very 
little compensation. Without the June 4th massacre, those workers would 
have formed unions, and the government would not have dared to abandon 
them. In short, the massacre, by creating universal fear and cynicism, 
gave the rise to the economic efficiency based on the deficiency in 
human rights.
    The irony is that this kind of reform, while morally reprehensible, 
was perhaps for a certain period of time the easiest to carry through 
successfully. The economic reform of socialist countries consists of 
making the transition from public ownership to private ownership. It is 
a task much easier said than done. Some people compared it to ``turning 
fish soup back into fish.''
    Russia and East Europe mainly used the method of ``division'': 
assets were divided into shares and then awarded to everyone. The 
advantage of this method is that it is fair and acceptable to all. 
Since assets were supposedly owned by the whole people, the most 
reasonable privatization plan was to award assets to everyone equally. 
This is the so called the privatization among the masses.
    But this method has its own shortcomings. Shares are left far too 
dispersed in this approach; everyone has a share, but at the same time, 
everyone has only one share: in the end, no one really cares about 
operational efficiency, thus perpetuating a managerial weakness 
inherent in past ownership. It requires a period of competition during 
which certain qualified individuals will consolidate an ever greater 
concentration of shares, and finally become true ``capitalists'' 
capable of managing their enterprise. However, in the early stages 
prior to the ``arrival'' of these capitalists, an enterprise's 
efficiency will not necessarily improve, and may in fact decline.
    China did not practice privatization among the masses. Without 
democratic participation and public supervision, the privatization in 
China became privatization among the powerful. CCP government officials 
of all ranks made public assets their own. Factory directors and party 
secretaries became rich capitalists in an instance. Today's CCP is the 
Board of China and the government officials its CEOs. In this way, 
China avoided the economic hardship of Russia and East Europe.
    Thus, the essence of the ``China's economic miracle'' can be 
briefly summarized as follows: economic reform has been implemented 
under the iron fist of a one-party dictatorship, providing officials 
with an opportunity to get rich by plundering state assets, thus make 
every official an enthusiastic reformer; officials have reaped fortunes 
through deception and the use of force, and have implemented instant 
privatization by making public assets their own. They have been 
dedicated advocate of economic development and efficiency, deficiency-
in-human-rights induced-efficiency, if you will. Due to the 
interweaving of power and money, those with most power are most likely 
to rapidly accumulate a massive abundance of capital. Such an 
arrangement provides a fertile environment for the privatization of 
former state-owned enterprises and the development of larger 
enterprises, and thus drives economic development in general.
    Because China remains governed by a one-party dictatorship that 
nips any and all sources of instability in the bud (for example, by 
banning independent workers' or peasants' unions), Chinese society 
appears to have attained a state of extreme stability . Meanwhile, the 
government's control over the economy, its highly consistent and 
predictable economic behavior and the absence of any opposition or any 
prospect of a change in leadership all serve attract international 
businesses, while also providing the domestic economy with resilience 
against international economic shocks. Similarly, because China remains 
governed by a one-party dictatorship, many fields of activity--
especially political activity--have been designated ``off limits, '' 
leaving the majority of people with no choice but to focus on economic 
activity. These restrictions, combined with the emergence of spiritual 
vacuum, individual greed and an unprecedented emancipation of material 
desires, have added fuel to the fire of economic development. Meanwhile 
those at bottom of social ladder who have suffered at the hands of 
bigwig officials and their manipulation of economic reform have no 
outlets to pursue justice with the present system. Chinese labor is 
already quite cheap, but the creation of slave labor through the CCP's 
policy has naturally made labor even cheaper, further boosting China's 
``great advantage'' in global economic competition.
    As we know, one of the most important strategies the Chinese 
government uses in economic development is export processing. It 
attracts huge amount of foreign capital into China, takes advantage of 
the deficiency in human rights in general, uses China's low cost labor 
in particular, and then exports the products. The Chinese government 
becomes very rich this way, but the purchasing power of the ordinary 
people do not increase accordingly. In countries that imported Chinese 
products, the capitalists make a fortune and ordinary people get cheap 
merchandise, but capital flows out, and industries shrinks rapidly. 
Workers lose jobs, welfare tends to decline, and public finances run 
into trouble. In other words, by exploiting the low levels of human 
rights of Chinese workers, China is able to maintain a competitive 
edge. Even free market economies such as the U. S. find it hard to 
compete with China, to say nothing of the welfare states.
    But China's model has a fatal flaw: it lacks any legitimacy 
whatsoever. This fact is without precedent in China or abroad, and is 
therefore little understood by most people.
    When we speak of the widening gap between the rich and the poor in 
China today, what I want to strongly emphasize is that not only is the 
gap very large, but the character of the problem is particularly 
malevolent. China's economic disparity problem is a unique one; it was 
not created by history or by the market forces, but by autocratic rule. 
In China, the reason why the poor live in poverty is because their 
possessions have been seized by those in power; the rich live in wealth 
because they are able to use their influence to snatch away the things 
that others have produced. Most people look at the Chinese economy and 
only see the breakneck speeds at which it has developed. Indeed, when 
compared to Russia and other former Communist countries in Eastern 
Europe, China's economic reform appears superior. But the problem is, 
no matter how many difficulties that Russia and the former Soviet 
countries have encountered in their economic reform and development, 
these difficulties occurred, at least, within systems of public 
supervision and democratic participation. In those countries, the 
citizens have the right to express themselves and the right to vote--
which gives their reforms a certain kind of basic legitimacy.
    China's situation is exactly the opposite. No matter how many 
dizzying accomplishments that China's reforms seem to achieve, because 
they take place in a system that lacks public supervision and 
democratic participation, it all inevitably leads to the plundering of 
the masses' property by the rich and powerful. First, the party used 
the name of revolution to transform the common people's private 
property into the public property of the ``whole people.'' Then it used 
the name of reform to turn the whole people's public property into the 
private property of its own members. First it stole in the name of 
revolution, then it divided the spoils in the name of reform. Yet these 
two opposite crimes were both committed in the space of 50 years by the 
same Party. This kind of reform bears no legitimacy whatsoever. 
Therefore, the twisted pattern of wealth distribution that it has 
spawned cannot be recognized or accepted by the people.
    Is the Chinese model sustainable? My answer is No. The first and 
foremost reason is that the ``Chinese model'' is built upon an unfair, 
illegitimate foundation that goes against humanity, against both human 
rights and democracy; people in China, as elsewhere in the world, 
demand for fairness, human rights and democracy. That is, they are 
demanding change.
    My mind at this moment cannot help but going back to May 30, 1989. 
In the midst of a national movement of millions--millions--demanding 
democratic reforms in China, the statue of the Goddess of Democracy was 
unveiled in Tiananmen Square by students who declared:

    ``The statue of the Goddess of Democracy is made of plaster, and of 
course cannot stand here forever. But as the symbol of the people's 
hearts, she is divine and inviolate. . . . Chinese people, arise! Erect 
the statue of the Goddess of Democracy in your millions of hearts! Long 
live the people! Long live freedom! Long live democracy! ''

    The statue, together with thousands of young lives, was crashed 
four days later by government tanks. But the desire for democracy was 
not crushed by these tanks. Indeed, the desire for democracy cannot be 
crushed in the hearts of any people. On December 10, 2008, the 60th 
anniversary of the Universal Declaration of Human Rights, 303 Chinese 
intellectuals published Charter 08. Its opening statement asserts:

     ``A hundred years have passed since the writing of China's first 
constitution. 2008 also marks the sixtieth anniversary of the 
promulgation of the Universal Declaration of Human Rights, the 
thirtieth anniversary of the appearance of [the] Democracy Wall in 
Beijing, and the tenth of China's signing of the International Covenant 
on Civil and Political Rights. We are approaching the twentieth 
anniversary of the 1989 Tiananmen massacre of pro-democracy student 
protesters. The Chinese people, who have endured human rights disasters 
and uncountable struggles across these same years, now include many who 
see clearly that freedom, equality, and human rights are universal 
values of humankind and that democracy and constitutional government 
are the fundamental framework for protecting these values. By departing 
from these values, the Chinese government's approach to `modernization' 
has proven disastrous. It has stripped people of their rights, 
destroyed their dignity, and corrupted normal human intercourse.''

    Despite the Chinese government's heavy-handed measures against the 
organizers of the Charter 08 petition, the number of signers continues 
to rise, and today it stands at nearly 10,000.
    The meaning of numbers is important to understand. Some academics 
in China and in the United States cite the scales of popular 
participation in activities encouraged or even orchestrated by the 
authorities as evidence of the people's approval of the government. But 
statistics based on the coercion of the tyrant's baton obviously 
misrepresent the true state of the minds of people living under 
dictatorship. More telling indicators are the numbers of people who 
engage in activities the government aims to prevent--or actually cracks 
down upon once they have begun. ``Mass incidents'' is the term the 
Chinese government uses to describe protests in which 100 or more 
people participate. The number of these ``incidents'' has risen to 
100,000 per year--which means that, on average, a new, large protest 
against the policies of the Chinese government takes place every five 
minutes.
    People are eager to find a breakthrough point. A reversal of the 
verdict on Tiananmen incident is widely considered one such 
breakthrough point. I agree. With this good intention, some democracy-
oriented intellectuals have recently called for reconciliation with 
regard to the tragedy. I think the notion of reconciliation is very 
important; we sooner or later will have to come to terms with our 
troubled past. But putting forth the proposal of reconciliation now is 
premature; primarily because the Chinese government has not even 
acknowledged any mistake in all this. One cannot reconcile to a non-
event. The admission of the events of June 4th must 
precede any reconciliation. Rather than acknowledge the past events, 
the CCP 
continues on the path of untruth. It continues to persecute the victims 
and their families, tens of those known as ``June 4 prisoners'' are 
still being imprisoned, no compensation has been made to victims or 
their families. The government remains a one-party repressive regime 
continuing to lie about the tragic events, to ignore the pleas from its 
own people and to demonstrate an unwillingness to listen. They 
repeatedly show us that they have no intention to change.
    The truth is not out. When it is, perhaps it will be through an 
impartial truth seeking committee, one of the major demands from 
Tiananmen mothers. It should be the regime, the more powerful party, 
not the victims that first raises up the issue of reconciliation. First 
an honest admission of the incident. Truth must be before 
reconciliation.
    The democratic forces in China are not strong enough to get the 
regime to sit at a negotiation table and begin a process towards the 
truth and towards reconciliation. And the regime has no willingness to 
engage in any such program because it has accumulated too many 
grievances of incredible magnitude. Tiananmen is just one of the many 
tragedies. So, to reach the end point of reconciliation, we must first 
develop the democratic forces, the viable opposition in China. That is 
necessary.
    I am often asked by American friends: ``What you say is all well 
and good, and I am myself convinced about the universality of democracy 
and freedom, but other than that, why should we care about whether, and 
how fast, China becomes democratic? '' My answer is simple. If China 
continues its path of economic development under a one-party 
dictatorship, it will pose a serious threat to our democratic way of 
life in the United States. China will serve as a model for dictators 
and juntas. In fact, it is already a model and a leading supporter of 
these regimes. Pick a dictator anywhere on the globe--from North Korea 
to Sudan, from Burma to Zimbabwe, from Cuba to Iran--and you'll almost 
certainly find that the Chinese regime is supporting it today.
    In the United States today, the Chinese government takes advantage 
of our freedom and democracy to solidify its position at home. It, or 
its surrogates, have wide access to our universities, think tanks, and 
media through which they can advance their opinions and rationalize 
their actions. The Chinese government has co-opted numerous American 
businessmen and academics by providing them with favorable business 
opportunities and all manner of privileges; in turn, they serve the 
purposes and interests of the Chinese government back in America as 
lobbyists for favorable policies towards China. Indeed, are not many of 
our opinions on China clouded by what has been the ``business-first'' 
priorities of our China policy which has benefited neither working-
class Americans nor ordinary Chinese?
    Make no mistake, the expansion of China's military power is also a 
significant and alarming development. Throughout the past decade, 
China's defense budget has increased at an annual rate double that of 
its GDP growth. The Chinese People's Liberation Army is acquiring more 
than enough power to intimidate surrounding East Asian countries, some 
of them America's allies. It seems clear that at present, China wants 
to minimize military confrontation with the United States and seeks 
instead to concentrate on developing its economy. Yet this could well 
be a temporary strategy, aimed at delaying conflict with the United 
States while giving China the time it needs to develop a more powerful 
military. Who can say what grandiose dreams and ambitions Chinese 
leaders may harbor 20 or 30 years hence if their regime is richer and 
stronger? History and a well-developed body of political theory show 
that established democracies rarely go to war with one another. If this 
is true, then the United States has a clear national security stake in 
whether China becomes an established democracy.
    But what leverage do we have with the Chinese government to push 
for positive change in China in the field of political rights? Some--
even those who want to restore human rights as a centerpiece of foreign 
policy--will say that we have little leverage to effect meaningful 
change.
    Exactly the opposite is true. But a detailed list of effective 
policies can emerge only after we rid ourselves of the delusions and 
false assumptions upon which our China policy has long been based. 
Above all, we must understand democracy in China is homegrown and not 
imposed by outside world as many have suggested and many others would 
worry it would be. But this does not mean that we must sit back and 
wait for democracy to bloom. Instead, it means engaging with and 
nurturing democratic forces already at work in China. People often talk 
about prerequisites for democratization; for me, the most important of 
all is that there must be democratic forces in Chinese society and I 
believe today more than ever that a visionary part of the U.S. 
engagement policy with China is to openly and systematically engage 
with the Chinese democratic forces and to nurture their growth.
    More than this, we need political leaders who will call attention 
to the fact that trade has not yet brought, and will never alone bring, 
an end to political repression or the Chinese Communist Party's 
monopoly on power. America has been carrying out a policy that benefits 
business interests in both the United States and China far more than it 
helps ordinary people in either country. It is time for change.
    To that end, I want to offer the idea of Reciprocity as a foreign 
policy platform.
    In 1997, Harvard University invited Jiang Zeming, then President of 
China, to speak at the campus. In response to this invitation, I 
organized a student demonstration which became the largest campus 
protest at Harvard since the Vietnam War. Those in favor of Jiang's 
visit argued for it on the basis of freedom of speech. Our protest 
argued against it on the grounds of Reciprocity.
    The lack of reciprocity gives the Chinese government a huge 
advantage in the field of world opinion, and in tamping down internal 
dissent. By insisting on reciprocity, the United States and the rest of 
the world's democracies can showcase their own freedoms while forcing 
the Chinese government into an untenable position with respect to its 
denial of basic rights to its own citizenry.
    As I said earlier, in the United States today, the Chinese 
government and its surrogates have wide access to our universities, 
think tanks, and media outlets through which they can advance their 
opinions and rationalize their actions.
    When U.S. government officials travel to China, their movements, 
their contacts, and their communications are tightly controlled. If 
officials give a speech it is not typically broadcast to the Chinese 
people. Congressman Chris Smith of New Jersey reported that on his last 
trip to China, his meetings with reform-minded Chinese citizens were 
suddenly canceled and that he could not access his own website on the 
Internet. Even Presidents Bush and Clinton had their speeches to 
Chinese citizens blocked when they visited China. Virtually all 
American media are blocked or jammed in China. Here in the United 
States, China can freely broadcast. In fact it is estimated that over 
90% of the Chinese-language media in the United States are Chinese-
government controlled. The Chinese government exploits our freedoms to 
extend its influence with Chinese communities in the United States.
    In short, there exists no reciprocity between China and the 
democratic world.
    It is fair and appropriate to ask the Chinese government for the 
same freedoms for its people that we ourselves enjoy; the same access 
to the Chinese people for our officials and delegations; the same open 
discussion and exchange of ideas that we extend to the Chinese 
government here in the United States. This idea of Reciprocity will 
allow us to directly and indirectly infuse the issue of human rights 
into all sectors of our dialogue with China in a way that would make it 
very difficult for the Chinese government to refuse. It would give the 
United States, and the other democracies of the world, further leverage 
in their discussions with China and help to restore the moral compass 
of the United States as it navigates the choppy seas of world 
diplomacy.
    The United States was founded on the principles of freedom, 
democracy, and certain inalienable rights. But the desire to meet 
short-term interests tends to compromise faithfulness to these 
principles. That inconsistency weakens American credibility. But the 
United States remains a great country, and its people a great people. I 
have an incurable confidence in American democracy, know as I do that 
its structure always makes it possible for its citizens to correct past 
mistakes. At present, isolationism is not the solution to the problem 
of a tarnished international image. Promoting democracy and freedom 
around the world will panic dictators and gain the interest of even 
those who have been hoodwinked by their rulers. We should always 
remember Reverend Martin Luther King's admonition that ``injustice 
anywhere is a threat to justice everywhere.''
                                 ______
                                 

  Prepared Statement of Hon. Byron Dorgan, a U.S. Senator From North 
     Dakota, Chairman, Congressional-Executive Commission on China

    Welcome to the Congressional-Executive Commission on China's first 
hearing in the 111th Congress. We have a distinguished group of 
witnesses before us today who will help us examine the significance of 
the tragic events of June 4, 1989, and aid us in exploring the 
implications of the 1989 democracy movement and its crackdown on U.S. 
policy toward China today.
    We are honored to have a number of Tiananmen student leaders and 
others who participated in those demonstrations here with us in the 
hearing room today. I want to welcome one person in particular--Mr. 
Fang Zheng. Mr. Fang was an athlete at the Beijing College of Sports. 
On June 4, he was participating in the protests. When he sought to pull 
a girl out from in front of a tank, his legs were crushed under the 
tank. Refusing later to publicly deny that the source of his injury was 
a military tank, Mr. Fang was expelled from school. Despite enormous 
hardship, he went on to become China's wheelchair discus and javelin 
champion. Earlier this year, he moved to the United States with his 
family. Welcome, Mr. Fang.
    Twenty years ago, peaceful protesters like Mr. Fang gathered in 
Beijing's Tiananmen Square calling for the elimination of corruption 
and for political reforms. In Beijing and hundreds of other cities 
across China, the asked for the right to speak freely, and for other 
freedoms we take for granted here in the United States. These 
protesters included not only students. Government employees, 
journalists, workers, police, and even members of China's armed forces 
also demonstrated that day.
    Chinese authorities tried to persuade the demonstrators to leave 
Tiananmen Square. But they refused. Thousands of armed troops carrying 
automatic weapons in large truck convoys moved into to ``clear the 
Square'' and surrounding streets of demonstrators. Then, soldiers in 
columns of tanks fired directly at citizens and into crowds, inflicting 
high civilian casualties, and killing or injuring unarmed civilians.
    Twenty years later, the exact number of dead and wounded remains 
unclear. The wounded are estimated to have numbered in the thousands. 
Detentions at the time were in the thousands. Some political prisoners 
who were sentenced in connection with the events surrounding June 4th 
still sit in Chinese prisons today.
    I ask to be included in the hearing record a representative list of 
Tiananmen Square prisoners who remain jail today. This list was 
developed from the Commission's political prisoner database, the 
largest publicly accessible database of China's political prisoners.
    An untold number of Chinese citizens died in the government's 
bloody crackdown. Relatives and friends have a right to mourn their 
sons, their daughters, their colleagues and their friends publicly. 
They have a right to call for a full and public accounting of the 
wounded and dead. They have a right to call for the release of those 
who are still imprisoned.
    But for attempting to exercise these rights, relatives and friends 
of those killed in 1989 have faced harassment. They have faced arrest. 
They have suffered abuses. Today, we express our sympathy to them. Most 
of all we honor the memory of those whom they loved whose lives were 
lost.
    Chinese authorities frequently tell us that today the Chinese 
people enjoy greater freedom to express themselves. I believe that it 
is true. But, at the same time, they repeatedly show the world how they 
violently silence those who work for fundamental rights for all of 
China's citizens.
    Right now, Chinese authorities are harassing and detaining human 
rights advocates. These include Mr. Liu Xiaobo and his wife, Liu Xia. 
Mr. Liu was a Tiananmen Square protester. He is now an important writer 
and thinker who signed Charter 08, which is a call for peaceful 
political reform published on-line last December by over 300 citizens. 
It has since been signed by thousands of individuals. For his 
endorsement of Charter 08, Mr. Liu is now under house arrest, and his 
wife faces constant harassment.
    Last month, I met in my office with Geng He, the wife of the great 
human rights lawyer, Gao Zhi Sheng. Mr. Gao has not been seen or heard 
from since this past February. He represented the poor and politically 
dispossessed, persecuted Christians and Falun Gong, exploited coal 
miners, and those battling official corruption. After Mr. Gao was 
released from prison on politically-related charges, he was placed 
under house arrest, and his family faced constant police surveillance 
and intimidation. For a period, even his 16-year-old daughter was 
barred from attending school. The treatment became so brutal that the 
family decided that their very survival depended on escaping from 
China. After his family fled, Mr. Gao was abducted from his home by 
members of the security services. He remains missing.
    I urge the Chinese government to inform Mr. Gao's wife, and his 
children, about where he is and to release him. His family is 
desperately worried about his well-being. I also appeal to the 
government to enforce internationally recognized standards of fairness 
and due process in judicial proceedings, and ask that it release those 
individuals imprisoned solely for peacefully exercising their rights--
whether they exercised those rights in Tiananmen Square in 1989 or in 
China today. China is an extraordinary country which has had immense 
success on many fronts and is justifiably proud. China must now lead on 
strengthening the human rights of its people and the integrity of its 
legal and political institutions with no less skill and commitment than 
it has used to lead millions of its people out of poverty.
                                 ______
                                 

  Prepared Statement of Hon. Sander Levin, a U.S. Representative From 
   Michigan, Cochairman, Congressional-Executive Commission on China

                              june 4, 2009
    Two decades ago, the Chinese people stood up at Tiananmen, but 
China's leaders ordered them to stand down. Many defied that order, 
choosing instead to remain faithful to their democratic aspirations. 
The world took note. And we preserve that memory for history today.
    In the last 20 years since Tiananmen Square, the significance of 
the U.S.-China relationship has grown dramatically--on a variety of 
foreign policy issues and in our economic relations. In pursuing these 
relations successfully, a key challenge has been to find the right 
combination of factors in pursuit of basic American values.
    That was a challenge in consideration of trade relations with China 
in its accession to the WTO. There was incorporated in the legislation 
before Congress in 2000 the creation of the Congressional-Executive 
Commission on China to pursue issues relating to human rights, 
including labor rights, and the rule of law. The Commission actively 
has engaged on these issues and has issued a comprehensive report every 
year since its inception.
    When peaceful protesters gathered in Beijing's Tiananmen Square in 
1989--and in over 100 other Chinese cities--it represented a burst of 
freedom. But after thousands of armed forces moved into Beijing, and 
surrounded protesters--students, government employees, journalists, 
workers, and police alike--bursts of gunfire killed that burst of 
freedom on June 4, 1989. Training its firepower directly into the 
crowds around Tiananmen Square, the People's Liberation Army killed and 
injured thousands of unarmed civilians.
    We express our sympathy to the relatives and friends of those 
killed on that day, and we stand with them today as we honor the memory 
and the courage of those whose lives were lost, of those who were 
unjustly wounded or detained, and those who continue to suffer today, 
including prisoners of conscience still languishing in Chinese prisons.
    We have asked our distinguished panelists here today in part to 
help us determine whether we ever will or even can know the exact 
number of dead, wounded, and detained. As we ask China's leaders for 
full and independent investigations into the Tiananmen Square crackdown 
with a full commitment to openness, we turn to you to help us 
understand whether there can be any realistic cause for optimism that 
such a public accounting can or will take place.
    As we call on Chinese authorities to release those individuals 
imprisoned solely for peacefully exercising their internationally 
recognized rights, we ask you to help us better understand what else we 
may do to enhance the prospects that the Chinese authorities will 
respond appropriately. When we call on Chinese authorities to end the 
harassment and detention of those who were involved in the 1989 
protests, and to end the harassment and detention of those who continue 
to advocate peacefully for political reform, we ask you to help us 
identify the factors that most determine the nature of the response we 
realistically may expect from Chinese authorities.
    But let us be absolutely clear: in all of this, we ask of China 
nothing that is inconsistent with commitments to international 
standards to which China in principal already has agreed. So we are not 
looking for more agreements. We are waiting for action. We are looking 
for China's leaders to demonstrate true commitment, not just in words 
but in deeds, to prioritizing human rights, including worker rights, 
and the development of the rule of law in no lesser measure than they 
have prioritized economic reform.
    The first meeting of the U.S.-China Strategic and Economic Dialogue 
in Washington, DC during the last week of July 2009, provides an 
important opportunity to underline how the challenges of protecting and 
advancing the welfare of citizens--American and Chinese citizens 
alike--must neither be separated nor distinguished from a demonstrated 
and full commitment to freedom of speech, freedom of assembly, anti-
corruption, democratic processes, and other fundamental human rights.
    In closing, I note again that, two decades ago, the Chinese people 
stood up at Tiananmen, but China's leaders ordered them to stand down. 
Many defied that order, choosing instead to remain faithful to their 
democratic aspirations. We must preserve that memory for history today. 
To remain faithful to our pursuit of basic American values, we must do 
nothing less. If we do not, the world will take note.
                                 ______
                                 

Prepared Statement of Hon. Christopher H. Smith, a U.S. Representative 
From New Jersey, Ranking Member, Congressional-Executive Commission on 
                                 China

                              june 4, 2009
    On this tragic 20th anniversary of the Tiananmen Square Massacre, I 
am afraid that, even today, American technology and know-how is 
enabling the Chinese Government to repress the truth about what 
happened on that day--about which it is absolutely vital that the 
Chinese people know the truth. After all, it is the truth about their 
history.
    Similarly, while the Internet has opened up commercial 
opportunities and provided access to vast amounts of information for 
people the world over, the Internet has also become a malicious tool: a 
cyber sledgehammer of repression of the government of China. As soon as 
the promise of the Internet began to be fulfilled--when brave Chinese 
began to email each other and others about human rights issues and 
corruption by government leaders--the Party cracked down. To date, an 
estimated 49 cyber-dissidents and 32 journalists have been imprisoned 
by the PRC for merely posting information on the Internet critical of 
the regime. And that's likely to be only the tip of the iceberg. Of 
course, one of the points on which the Chinese Government is most eager 
to crack down is dissemination of the truth about Tiananmen.
    Tragically, history shows us that American companies and their 
subsidiaries have provided the technology to crush human rights in the 
past. Edwin Black's book IBM and the Holocaust reveals the dark story 
of IBM's strategic alliance with Nazi Germany. Thanks to IBM's enabling 
technologies, from programs for identification and cataloging to the 
use of IBM's punch card technology, Hitler and the Third Reich were 
able to automate the genocide of the Jews.
    U.S. technology companies today are engaged in a similar sickening 
collaboration, decapitating the voice of the dissidents. In 2005, 
Yahoo's cooperation with Chinese secret police led to the imprisonment 
of the cyber-dissident Shi Tao. And this was not the first time. 
According to Reporters Without Borders, Yahoo also handed over data to 
Chinese authorities on another of its users, Li Zhi . Li Zhi was 
sentenced on December 10, 2003 to eight years in prison for ``inciting 
subversion.'' His ``crime'' was to criticize in online discussion 
groups and articles the well-known corruption of local officials.
    Women and men are going to the gulag and being tortured as a direct 
result of information handed over to Chinese officials. When Yahoo was 
asked to explain its actions, Yahoo said that it must adhere to local 
laws in all countries where it operates. But my response to that is: if 
the secret police a half century ago asked where Anne Frank was hiding, 
would the correct answer be to hand over the information in order to 
comply with local laws? These are not victimless crimes. We must stand 
with the oppressed, not the oppressors.
    I believe that two of the most essential pillars that prop up 
totalitarian regimes are the secret police and propaganda. Yet for the 
sake of market share and profits, leading U.S. companies like Google, 
Yahoo, Cisco and Microsoft have compromised both the integrity of their 
product and their duties as responsible corporate citizens. They have 
aided and abetted the Chinese regime to prop up both of these pillars, 
propagating the message of the dictatorship unabated and supporting the 
secret police in a myriad of ways, including surveillance and invasion 
of privacy, in order to effectuate the massive crackdown on its 
citizens.-
    Through an approach that monitors, filters, and blocks content with 
the use of technology and human monitors, the Chinese people have 
little access to uncensored information about any political or human 
rights topic, unless of course, Big Brother wants them to see it. 
Google.cn, China's search engine, is guaranteed to take you to the 
virtual land of deceit, disinformation and the big lie. As such, the 
Chinese government utilizes the technology of U.S. IT companies 
combined with human censors--led by an estimated force of 30,000 cyber 
police--to control information in China. Websites that provide the 
Chinese people news about their country and the world, such as AP, UPI, 
Reuters, and AFP, as well as Voice of America and Radio Free Asia, are 
regularly blocked in China. In addition, when a user enters a forbidden 
word, such as ``democracy,'' ``China torture'' or ``Falun Gong,'' the 
search results are blocked, or you are redirected to a misleading site, 
and the user's computer can be frozen for unspecified periods of time.
    Google censors what are euphemistically called ``politically 
sensitive'' terms, such as ``Tiananmen,'' democracy,'' ``China human 
rights,'' ``China torture'' and the like on its Chinese search site, 
Google.cn. A search for terms such as ``Tiananmen Square'' produces two 
very different results. The one from Google.cn shows a picture of a 
smiling couple, but the results from Google.com show scores of photos 
depicting the mayhem and brutality of the 1989 Tiananmen square 
massacre.
    Google claims that some information is better than nothing. But in 
this case, the limited information displayed amounts to disinformation. 
A half truth is not the truth--it is a lie. And a lie is worse than 
nothing. It is hard not to draw the conclusion that Google has 
seriously compromised its ``Don't Be Evil'' policy. It has become 
evil's accomplice.
    And that continues. Last summer Frank Wolf and I were in Beijing. 
We tried to look up ``Tiananmen Square'' on the tightly-controlled 
Chinese Internet. Of course, mere mention of the slaughter has been 
removed from the Chinese Internet. We walked across Tiananmen Square--
officials searched us before we entered the square, and squads of 
police surrounded us while we were on it, terrified we might hold up a 
simple sign or banner.
    Standing for human rights has never been easy or without price, and 
companies are extremely reluctant to pay that price. That's why our 
government also has a major role to play in this critical area, and 
that a more comprehensive framework is needed to protect and promote 
human rights.
    This is why I have re-introduced The Global Online Freedom Act, 
H.R. 2271. I believe it can be an important lever to help disseminate 
the truth--about Tiananmen and so many more things in the history of 
China--to the Chinese people by means of the Internet.
    I'd like to ask you to support this bill, which would prevent U.S. 
high-tech Internet companies from turning over to the Chinese police 
information that identifies individual Internet users who express 
political and religious ideas that the communists are trying to 
suppress. It would also require companies to disclose how the Chinese 
version of their search engines censors the Internet.
    In the last Congress, the bill passed the Foreign Affairs Committee 
and was ready for a floor vote, but influential lobbies prevented a 
vote on the bill.
    I also want to mention the exciting firewall-busting technology 
that a group of dedicated Chinese human rights activists are promoting. 
They have technology that enables users in China to bypass the Chinese 
government's so-called ``Golden Shield'' censorship effort and surf the 
Internet freely. With this technology, which has been demonstrated to 
me in my office, Chinese users can visit the same Internet you and I 
do, and there is nothing the Chinese government can do about it. I 
think we should all ask the State Department to financially support 
this technology--which could produce a human rights and rule of law 
revolution in China.
    Today provides us an important reminder that the fight the 
Tiananmen protesters took on 20 years ago is still going on, in the 
streets, the Internet cafe's and here today. To the brave men and women 
who continue to fight for the rights of the Chinese people--we say, we 
stand with you, we remember you, and we will not abandon the fight for 
your freedoms.

                       Submissions for the Record

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 [From the New York Review of Books, Volume 56, Number 1, January 15, 
                                 2009]

                           China's Charter 08

              (Translated from the Chinese by Perry Link)

    The document below, signed by more than two thousand Chinese 
citizens, was conceived and written in conscious admiration of the 
founding of Charter 77 in Czechoslovakia, where, in January 1977, more 
than two hundred Czech and Slovak intellectuals formed a

        loose, informal, and open association of people . . . united by 
        the will to strive individually and collectively for respect 
        for human and civil rights in our country and throughout the 
        world.

    The Chinese document calls not for ameliorative reform of the 
current political system but for an end to some of its essential 
features, including one-party rule, and their replacement with a system 
based on human rights and democracy.
    The prominent citizens who have signed the document are from both 
outside and inside the government, and include not only well-known 
dissidents and intellectuals, but also middle-level officials and rural 
leaders. They chose December 10, the anniversary of the Universal 
Declaration of Human Rights, as the day on which to express their 
political ideas and to outline their vision of a constitutional, 
democratic China. They want Charter 08 to serve as a blueprint for 
fundamental political change in China in the years to come. The signers 
of the document will form an informal group, open-ended in size but 
united by a determination to promote democratization and protection of 
human rights in China and beyond.

--Perry Link
                              i. foreword
    A hundred years have passed since the writing of China's first 
constitution. 2008 also marks the sixtieth anniversary of the 
promulgation of the ``Universal Declaration of Human Rights,'' the 
thirtieth anniversary of the appearance of the Democracy Wall in 
Beijing, and the tenth of China's signing of the International Covenant 
on Civil and Political Rights. We are approaching the twentieth 
anniversary of the 1989 Tiananmen massacre of pro-democracy student 
protesters. The Chinese people, who have endured human rights disasters 
and uncountable struggles across these same years, now include many who 
see clearly that freedom, equality, and human rights are universal 
values of humankind and that democracy and constitutional government 
are the fundamental framework for protecting these values.
    By departing from these values, the Chinese government's approach 
to ``modernization'' has proven disastrous. It has stripped people of 
their rights, destroyed their dignity, and corrupted normal human 
intercourse. So we ask: Where is China headed in the twenty-first 
century? Will it continue with ``modernization'' under authoritarian 
rule, or will it embrace universal human values, join the mainstream of 
civilized nations, and build a democratic system? There can be no 
avoiding these questions.
    The shock of the Western impact upon China in the nineteenth 
century laid bare a decadent authoritarian system and marked the 
beginning of what is often called ``the greatest changes in thousands 
of years'' for China. A ``self-strengthening movement'' followed, but 
this aimed simply at appropriating the technology to build gunboats and 
other Western material objects. China's humiliating naval defeat at the 
hands of Japan in 1895 only confirmed the obsolescence of China's 
system of government. The first attempts at modern political change 
came with the ill-fated summer of reforms in 1898, but these were 
cruelly crushed by ultraconservatives at China's imperial court. With 
the revolution of 1911, which inaugurated Asia's first republic, the 
authoritarian imperial system that had lasted for centuries was finally 
supposed to have been laid to rest. But social conflict inside our 
country and external pressures were to prevent it; China fell into a 
patchwork of warlord fiefdoms and the new republic became a fleeting 
dream.
    The failure of both ``self- strengthening'' and political 
renovation caused many of our forebears to reflect deeply on whether a 
``cultural illness'' was afflicting our country. This mood gave rise, 
during the May Fourth Movement of the late 1910s, to the championing of 
``science and democracy.'' Yet that effort, too, foundered as warlord 
chaos persisted and the Japanese invasion [beginning in Manchuria in 
1931] brought national crisis.
    Victory over Japan in 1945 offered one more chance for China to 
move toward modern government, but the Communist defeat of the 
Nationalists in the civil war thrust the nation into the abyss of 
totalitarianism. The ``new China'' that emerged in 1949 proclaimed that 
``the people are sovereign'' but in fact set up a system in which ``the 
Party is all-powerful.'' The Communist Party of China seized control of 
all organs of the state and all political, economic, and social 
resources, and, using these, has produced a long trail of human rights 
disasters, including, among many others, the Anti-Rightist Campaign 
(1957), the Great Leap Forward (1958--1960), the Cultural Revolution 
(1966--1969), the June Fourth [Tiananmen Square] Massacre (1989), and 
the current repression of all unauthorized religions and the 
suppression of the weiquan rights movement [a movement that aims to 
defend citizens' rights promulgated in the Chinese Constitution and to 
fight for human rights recognized by international conventions that the 
Chinese government has signed]. During all this, the Chinese people 
have paid a gargantuan price. Tens of millions have lost their lives, 
and several generations have seen their freedom, their happiness, and 
their human dignity cruelly trampled.
    During the last two decades of the twentieth century the government 
policy of ``Reform and Opening'' gave the Chinese people relief from 
the pervasive poverty and totalitarianism of the Mao Zedong era, and 
brought substantial increases in the wealth and living standards of 
many Chinese as well as a partial restoration of economic freedom and 
economic rights. Civil society began to grow, and popular calls for 
more rights and more political freedom have grown apace. As the ruling 
elite itself moved toward private ownership and the market economy, it 
began to shift from an outright rejection of ``rights'' to a partial 
acknowledgment of them.
    In 1998 the Chinese government signed two important international 
human rights conventions; in 2004 it amended its constitution to 
include the phrase ``respect and protect human rights''; and this year, 
2008, it has promised to promote a ``national human rights action 
plan.'' Unfortunately most of this political progress has extended no 
further than the paper on which it is written. The political reality, 
which is plain for anyone to see, is that China has many laws but no 
rule of law; it has a constitution but no constitutional government. 
The ruling elite continues to cling to its authoritarian power and 
fights off any move toward political change.
    The stultifying results are endemic official corruption, an 
undermining of the rule of law, weak human rights, decay in public 
ethics, crony capitalism, growing inequality between the wealthy and 
the poor, pillage of the natural environment as well as of the human 
and historical environments, and the exacerbation of a long list of 
social conflicts, especially, in recent times, a sharpening animosity 
between officials and ordinary people.
    As these conflicts and crises grow ever more intense, and as the 
ruling elite continues with impunity to crush and to strip away the 
rights of citizens to freedom, to property, and to the pursuit of 
happiness, we see the powerless in our society--the vulnerable groups, 
the people who have been suppressed and monitored, who have suffered 
cruelty and even torture, and who have had no adequate avenues for 
their protests, no courts to hear their pleas--becoming more militant 
and raising the possibility of a violent conflict of disastrous 
proportions. The decline of the current system has reached the point 
where change is no longer optional.
                     ii. our fundamental principles
    This is a historic moment for China, and our future hangs in the 
balance. In reviewing the political modernization process of the past 
hundred years or more, we reiterate and endorse basic universal values 
as follows:

    Freedom. Freedom is at the core of universal human values. Freedom 
of speech, freedom of the press, freedom of assembly, freedom of 
association, freedom in where to live, and the freedoms to strike, to 
demonstrate, and to protest, among others, are the forms that freedom 
takes. Without freedom, China will always remain far from civilized 
ideals.
    Human rights. Human rights are not bestowed by a state. Every 
person is born with inherent rights to dignity and freedom. The 
government exists for the protection of the human rights of its 
citizens. The exercise of state power must be authorized by the people. 
The succession of political disasters in China's recent history is a 
direct consequence of the ruling regime's disregard for human rights.
    Equality. The integrity, dignity, and freedom of every person--
regardless of social station, occupation, sex, economic condition, 
ethnicity, skin color, religion, or political belief--are the same as 
those of any other. Principles of equality before the law and equality 
of social, economic, cultural, civil, and political rights must be 
upheld.
    Republicanism. Republicanism, which holds that power should be 
balanced among different branches of government and competing interests 
should be served, resembles the traditional Chinese political ideal of 
``fairness in all under heaven.'' It allows different interest groups 
and social assemblies, and people with a variety of cultures and 
beliefs, to exercise democratic self-government and to deliberate in 
order to reach peaceful resolution of public questions on a basis of 
equal access to government and free and fair competition.
    Democracy. The most fundamental principles of democracy are that 
the people are sovereign and the people select their government. 
Democracy has these characteristics: (1) Political power begins with 
the people and the legitimacy of a regime derives from the people. (2) 
Political power is exercised through choices that the people make. (3) 
The holders of major official posts in government at all levels are 
determined through periodic competitive elections. (4) While honoring 
the will of the majority, the fundamental dignity, freedom, and human 
rights of minorities are protected. In short, democracy is a modern 
means for achieving government truly ``of the people, by the people, 
and for the people.''
    Constitutional rule. Constitutional rule is rule through a legal 
system and legal regulations to implement principles that are spelled 
out in a constitution. It means protecting the freedom and the rights 
of citizens, limiting and defining the scope of legitimate government 
power, and providing the administrative apparatus necessary to serve 
these ends.
                         iii. what we advocate
    Authoritarianism is in general decline throughout the world; in 
China, too, the era of emperors and overlords is on the way out. The 
time is arriving everywhere for citizens to be masters of states. For 
China the path that leads out of our current predicament is to divest 
ourselves of the authoritarian notion of reliance on an ``enlightened 
overlord'' or an ``honest official'' and to turn instead toward a 
system of liberties, democracy, and the rule of law, and toward 
fostering the consciousness of modern citizens who see rights as 
fundamental and participation as a duty. Accordingly, and in a spirit 
of this duty as responsible and constructive citizens, we offer the 
following recommendations on national governance, citizens' rights, and 
social development:

    1. A New Constitution. We should recast our present constitution, 
rescinding its provisions that contradict the principle that 
sovereignty resides with the people and turning it into a document that 
genuinely guarantees human rights, authorizes the exercise of public 
power, and serves as the legal underpinning of China's democratization. 
The constitution must be the highest law in the land, beyond violation 
by any individual, group, or political party.
    2. Separation of Powers. We should construct a modern government in 
which the separation of legislative, judicial, and executive power is 
guaranteed. We need an Administrative Law that defines the scope of 
government responsibility and prevents abuse of administrative power. 
Government should be responsible to taxpayers. Division of power 
between provincial governments and the central government should adhere 
to the principle that central powers are only those specifically 
granted by the constitution and all other powers belong to the local 
governments.
    3. Legislative Democracy. Members of legislative bodies at all 
levels should be chosen by direct election, and legislative democracy 
should observe just and impartial principles.
    4. An Independent Judiciary. The rule of law must be above the 
interests of any particular political party and judges must be 
independent. We need to establish a constitutional supreme court and 
institute procedures for constitutional review. As soon as possible, we 
should abolish all of the Committees on Political and Legal Affairs 
that now allow Communist Party officials at every level to decide 
politically sensitive cases in advance and out of court. We should 
strictly forbid the use of public offices for private purposes.
    5. Public Control of Public Servants. The military should be made 
answerable to the national government, not to a political party, and 
should be made more professional. Military personnel should swear 
allegiance to the constitution and remain nonpartisan. Political party 
organizations must be prohibited in the military. All public officials 
including police should serve as nonpartisans, and the current practice 
of favoring one political party in the hiring of public servants must 
end.
    6. Guarantee of Human Rights. There must be strict guarantees of 
human rights and respect for human dignity. There should be a Human 
Rights Committee, responsible to the highest legislative body, that 
will prevent the government from abusing public power in violation of 
human rights. A democratic and constitutional China especially must 
guarantee the personal freedom of citizens. No one should suffer 
illegal arrest, detention, arraignment, interrogation, or punishment. 
The system of ``Reeducation through Labor'' must be abolished.
    7. Election of Public Officials. There should be a comprehensive 
system of democratic elections based on ``one person, one vote.'' The 
direct election of administrative heads at the levels of county, city, 
province, and nation should be systematically implemented. The rights 
to hold periodic free elections and to participate in them as a citizen 
are inalienable.
    8. Rural--Urban Equality. The two-tier household registry system 
must be abolished. This system favors urban residents and harms rural 
residents. We should establish instead a system that gives every 
citizen the same constitutional rights and the same freedom to choose 
where to live.
    9. Freedom to Form Groups. The right of citizens to form groups 
must be guaranteed. The current system for registering nongovernment 
groups, which requires a group to be ``approved,'' should be replaced 
by a system in which a group simply registers itself. The formation of 
political parties should be governed by the constitution and the laws, 
which means that we must abolish the special privilege of one party to 
monopolize power and must guarantee principles of free and fair 
competition among political parties.
    10. Freedom to Assemble. The constitution provides that peaceful 
assembly, demonstration, protest, and freedom of expression are 
fundamental rights of a citizen. The ruling party and the government 
must not be permitted to subject these to illegal interference or 
unconstitutional obstruction.
    11. Freedom of Expression. We should make freedom of speech, 
freedom of the press, and academic freedom universal, thereby 
guaranteeing that citizens can be informed and can exercise their right 
of political supervision. These freedoms should be upheld by a Press 
Law that abolishes political restrictions on the press. The provision 
in the current Criminal Law that refers to ``the crime of incitement to 
subvert state power'' must be abolished. We should end the practice of 
viewing words as crimes.
    12. Freedom of Religion. We must guarantee freedom of religion and 
belief, and institute a separation of religion and state. There must be 
no governmental interference in peaceful religious activities. We 
should abolish any laws, regulations, or local rules that limit or 
suppress the religious freedom of citizens. We should abolish the 
current system that requires religious groups (and their places of 
worship) to get official approval in advance and substitute for it a 
system in which registry is optional and, for those who choose to 
register, automatic.
    13. Civic Education. In our schools we should abolish political 
curriculums and examinations that are designed to indoctrinate students 
in state ideology and to instill support for the rule of one party. We 
should replace them with civic education that advances universal values 
and citizens' rights, fosters civic consciousness, and promotes civic 
virtues that serve society.
    14. Protection of Private Property. We should establish and protect 
the right to private property and promote an economic system of free 
and fair markets. We should do away with government monopolies in 
commerce and industry and guarantee the freedom to start new 
enterprises. We should establish a Committee on State-Owned Property, 
reporting to the national legislature, that will monitor the transfer 
of state-owned enterprises to private ownership in a fair, competitive, 
and orderly manner. We should institute a land reform that promotes 
private ownership of land, guarantees the right to buy and sell land, 
and allows the true value of private property to be adequately 
reflected in the market.
    15. Financial and Tax Reform. We should establish a democratically 
regulated and accountable system of public finance that ensures the 
protection of taxpayer rights and that operates through legal 
procedures. We need a system by which public revenues that belong to a 
certain level of government--central, provincial, county or local--are 
controlled at that level. We need major tax reform that will abolish 
any unfair taxes, simplify the tax system, and spread the tax burden 
fairly. Government officials should not be able to raise taxes, or 
institute new ones, without public deliberation and the approval of a 
democratic assembly. We should reform the ownership system in order to 
encourage competition among a wider variety of market participants.
    16. Social Security. We should establish a fair and adequate social 
security system that covers all citizens and ensures basic access to 
education, health care, retirement security, and employment.
    17. Protection of the Environment. We need to protect the natural 
environment and to promote development in a way that is sustainable and 
responsible to our descendants and to the rest of humanity. This means 
insisting that the state and its officials at all levels not only do 
what they must do to achieve these goals, but also accept the 
supervision and participation of nongovernmental organizations.
    18. A Federated Republic. A democratic China should seek to act as 
a responsible major power contributing toward peace and development in 
the Asian Pacific region by approaching others in a spirit of equality 
and fairness. In Hong Kong and Macao, we should support the freedoms 
that already exist. With respect to Taiwan, we should declare our 
commitment to the principles of freedom and democracy and then, 
negotiating as equals and ready to compromise, seek a formula for 
peaceful unification. We should approach disputes in the national-
minority areas of China with an open mind, seeking ways to find a 
workable framework within which all ethnic and religious groups can 
flourish. We should aim ultimately at a federation of democratic 
communities of China.
    19. Truth in Reconciliation. We should restore the reputations of 
all people, including their family members, who suffered political 
stigma in the political campaigns of the past or who have been labeled 
as criminals because of their thought, speech, or faith. The state 
should pay reparations to these people. All political prisoners and 
prisoners of conscience must be released. There should be a Truth 
Investigation Commission charged with finding the facts about past 
injustices and atrocities, determining responsibility for them, 
upholding justice, and, on these bases, seeking social reconciliation.

    China, as a major nation of the world, as one of five permanent 
members of the United Nations Security Council, and as a member of the 
UN Council on Human Rights, should be contributing to peace for 
humankind and progress toward human rights. Unfortunately, we stand 
today as the only country among the major nations that remains mired in 
authoritarian politics. Our political system continues to produce human 
rights disasters and social crises, thereby not only constricting 
China's own development but also limiting the progress of all of human 
civilization. This must change, truly it must. The democratization of 
Chinese politics can be put off no longer.
    Accordingly, we dare to put civic spirit into practice by 
announcing Charter 08. We hope that our fellow citizens who feel a 
similar sense of crisis, responsibility, and mission, whether they are 
inside the government or not, and regardless of their social status, 
will set aside small differences to embrace the broad goals of this 
citizens' movement. Together we can work for major changes in Chinese 
society and for the rapid establishment of a free, democratic, and 
constitutional country. We can bring to reality the goals and ideals 
that our people have incessantly been seeking for more than a hundred 
years, and can bring a brilliant new chapter to Chinese civilization.

--Perry Link, December 18, 2008
                                 ______
                                 

   Prepared Statement of John Kamm, Executive Director, The Dui Hua 
                               Foundation

                              june 3, 2009

                      How Tiananmen Changed China

    In ``The Book of Laughter and Forgetting,'' Milan Kundera tells the 
story of an official who falls from power in Communist Czechoslovakia, 
is executed and airbrushed from history. Because he gave his hat to 
another official on stage with him, his hat was not airbrushed from 
history. Whenever people saw the hat, they remembered the man. Kundera 
gives voice to the hope of those who would erase history and those who 
would remember it: ``Before long the nation will forget what it is and 
what it was. The world around it will forget even faster. The struggle 
of man against power is the struggle of memory against forgetting.''
    By that measure, the struggle that began in Tiananmen Square 20 
years ago continues today. It lives in memory and in legacy. It gave 
birth to an era of protest and the rise of a human rights consciousness 
among the Chinese people. For the first time in history, the Chinese 
government faced massive international criticism for its human rights 
record. Pressure from abroad and rising dissent at home have together 
helped bring about significant developments in the area of human 
rights, though much work remains to be done.
    During the last two weeks there has been an outpouring of memories 
of June 4. We have heard from many of the June 4 protest leaders, 
including Bao Tong, Wang Dan, Chai Ling, and Wu'erkaixi, as well as 
many more lesser-known dissidents who went to prison for what they did 
in the square and in hundreds of cities across the country. (Zhejiang 
prisoners have eloquently spelled out what it means to be branded as a 
June 4 prisoner: ``We are waiting to die.'') The New York Times devoted 
an entire page to remembrances of June 4 by four Chinese artists. Ma 
Jian, author of ``Beijing Coma,'' has written a particularly moving 
testimony of what he went through in June 1989. I recommend it to you.
    Ding Zilin and the Tiananmen Mothers, those who lost children in 
the suppression of the protests, have released another in a series of 
calls for the government to take responsibility for the large number of 
civilian deaths in Beijing. In Hong Kong--the only place administered 
by China where June 4 is remembered publicly--a huge candlelight vigil 
is to take place in a few hours. Hong Kong University students 
overwhelmingly condemned the killings and subsequent repression, even 
voting out the student body president for attempting to take a softer 
line on Tiananmen. Hong Kong returned to Chinese rule almost 12 years 
ago, but the memory of Tiananmen lives on.
    Striking from the grave, ousted party secretary Zhao Ziyang has 
provided fresh and vivid reporting in his recently published memoirs of 
how the crackdown against protesters came about. His book is flying off 
the shelves in Hong Kong and is doubtless already available in some 
form or another inside China itself.
    After years of seeming apathy among China's students, there are 
signs that China's youth are taking more interest in what happened on 
June 4. In a recent article in Hong Kong's South China Morning Post, 
the story is told of a lecture by 83-year-old Professor Zhang Sizhi to 
a rapt audience of 300 students at the China University of Political 
Science and Law in Beijing. Professor Zhang, who is also a criminal 
defense lawyer, spoke openly of his work defending leading June 4 
dissidents, including Wang Juntao and Bao Tong, and admonished the 
students to face truth and history with courage.
    While the professor spoke, security agents hovered around the 
perimeter but never actually intervened. There have been small--no, 
tiny--signs that Beijing is willing to allow a little more leeway for 
discussion of June 4. Private memorial services are held with the 
knowledge of the police. A proxy for the government writes an op-ed in 
which it is acknowledged that ``mistakes were made.'' Mention is made 
of June 4 in an official newspaper, Global Times.
    Chinese police have reacted in familiar fashion to those identified 
as trouble-makers in the run-up to June 4, hustling dissidents out of 
town, detaining them for brief periods, or inviting them to ``drink 
tea''--a euphemism for a mild form of interrogation, cutting off their 
access to outsiders. Yet, so far, Beijing has shown relative restraint, 
at least when compared to the past. Interference with media, extending 
to shut-downs of Twitter, Flickr, hotmail, and numerous websites is 
intensifying and monitoring of emails is at an all-time high. But the 
days when the Chinese government can effectively control the access of 
its citizens to information and opinions not sanctioned by the state 
are coming to an end. As China's citizens become wealthier and have 
more time to debate and ask questions, travel more and enjoy more ways 
of finding out information, interest in what happened 20 years ago will 
grow, not subside. China has produced many of the world's great 
historians. The history of Tiananmen is yet to be written.
    Tiananmen lives on in memory, but it also lives on in legacy. What 
happened in Tiananmen Square twenty years ago changed China in big but 
as yet undetermined ways. When asked more than 50 years ago for his 
assessment of the French Revolution, Zhou Enlai replied that it was too 
early to say. We should bear Premier Zhou's wisdom in mind as we seek 
to understand how China changed and is changing because of Tiananmen. 
In trying to assess how Tiananmen changed China, we not only lack the 
benefit of time--twenty years in the sweep of Chinese history is, after 
all, not a long time--we also lack key information on the events in 
Beijing and the subsequent uprisings all over the country.
    Vitally important questions remain to be answered before the 
history is written and verdicts passed. What was the decision process 
whereby martial law was 
declared? Zhao Ziyang says that the decision to send in the troops 
violated Party procedure. Was martial law itself legally declared? In 
terms of operational responsibility, which units did what under whose 
command?
    What is so striking to me as someone whose human rights career 
spans the entire 20 years since Tiananmen is that we still don't know 
the answers to critical questions such as these.
    How many died in the massacre? The Chinese government has released 
a figure of 241 dead and 7,000 wounded. I go with Nicholas Kristof's 
estimate of 800 deaths in Beijing; Kristof won a Pulitzer Prize for his 
coverage of the 1989 protests. It is increasingly accepted that 
students were not shot in the square itself. The majority of deaths 
occurred throughout the city as enraged citizens took up arms and 
fought with soldiers.
    How many were executed? In Beijing, we know of one dozen executions 
shortly after Tiananmen. There were also executions in the provinces. 
All told, fewer than 100 people were probably executed.
    How many were detained? The Dui Hua Foundation keeps track of 
statistics on political cases discovered and solved by China's 
political police, the First Bureau of the Public Security Ministry. 
Estimates based on statistics covering 11 percent of China's population 
show that political cases quadrupled in 1989 from 1988's total to reach 
a level of 13,500 cases, of which about 10,000 were solved. If we 
subtract cases not related to June 4, and assume two individuals per 
case, we arrive at an estimate of at least 15,000 people detained in 
political cases arising from June 4. It is possible that not all 
instances of rioting were classified as political cases, so the number 
of people detained post-June 4 around the country could be higher.
    Whatever the number is, it is staggeringly high. Dui Hua maintains 
a database on individuals arrested in political cases since 1980. We 
have records on 2,125 individuals detained for the actions they 
committed on or around June 4. We add names all the time. Recently, a 
Chinese NGO released a report with new names of people detained. Based 
on this report, we will add 100-200 names to the database, but we still 
probably know fewer than 15 percent of the names of people detained.
    How many places were affected by the protests? This is where it 
gets really difficult. I was in southern China on June 4, within range 
of Hong Kong TV, which broadcast footage of the suppression of the 
protests. I would hazard a guess that every township of any size in the 
Pearl River Delta witnessed protests in the aftermath of the bloodshed 
in Beijing. The number of places affected by protests certainly exceeds 
a thousand nationwide. About a quarter of political cases from June 4 
apparently went unsolved, a percentage much lower than 90 percent 
solution rate for other periods. Like today, China's police simply 
couldn't cope with the number and intensity of protests.
    As with our work uncovering the names of those detained, Dui Hua 
records accounts of local protests in China's police records about June 
4. Recently we discovered a detailed account of the protests in 
Kunming, the capital of Yunnan Province. The city witnessed protests 
that began in April and lasted for nearly a week after June 4. Marches 
before the killings already exceeded 30,000 participants. Citizen 
organizations arose to manage the protests. According to official 
statistics, there were 68 incidents of industrial unrest, 130 street 
protests, and 51 hunger strikes. Seventeen cases of 
``counterrevolution'' were solved. A total of 61 individuals were 
detained, of whom 25 were formally arrested and brought to trial, 16 
sent to ``reeducation-through-labor,'' and 20 handled through other 
methods. This in a city of more than two million inhabitants.
                           three observations
    Despite the difficulties in assessing how Tiananmen changed China, 
I would like to offer three observations on how the 1989 protests and 
their suppression impacted the Chinese government and the Chinese 
people.
(1) Tiananmen delayed economic reform and growth by at least three 
        years, probably more.
    It took Deng Xiaoping's Southern Tour in 1992 to affirm the export-
driven, wealth-generating model developed largely by the purged Zhao 
Ziyang. Wherever China is today economically, it would have gotten 
there sooner and with much less sacrifice had Tiananmen not taken 
place. Tiananmen also stifled legal reform. Perhaps the best example is 
the removal of counterrevolution as a crime. It was well on track to be 
removed in 1988. Tiananmen, labeled a counterrevolutionary riot, put 
paid to the idea of getting rid of counterrevolution. It wasn't until 
1997 that China removed counterrevolution from its criminal code. At 
that time, there were just under 2,000 counterrevolutionaries in 
prisons under the jurisdiction of the Ministry of Justice. Today, 12 
years later, there are still more than 100 counterrevolutionaries in 
prison, including several convicted of counterrevolutionary sabotage 
during the June 1989 protests. Their continued incarceration has 
affected China's ability to ratify the International Covenant on Civil 
and Political Rights.
    Another area where Tiananmen might have affected legal reform is 
with regard to the death penalty. Unfortunately, we have too little 
data on the number of executions in China to draw firm conclusions. The 
only county for which detailed statistics have been found is Maguan 
County in Yunnan. These numbers show a big jump in the number of 
executions in 1989 and thereafter.
    China has recently made great strides in reducing the number of 
executions nationwide, from about 15,000 a year a decade ago to around 
a third that many in 2008. However, what strikes me about this fact--
other than the sheer numbers involved--is that it took over a decade 
after Tiananmen until serious reductions in the use of capital 
punishment began to take place.
(2) Tiananmen ushered in the era of ``mass protests,'' and gave rise to 
        a greater human rights consciousness among the Chinese people.
    The Chinese government has, since Tiananmen, had to contend with 
mounting protests covering a wide range of grievances, including some 
of the very grievances, many economic, that led to the 1989 protests. 
Dui Hua keeps track of mass incidents in a database that currently 
holds information on nearly 1,400 incidents over the last three years--
a small fraction of the total. Not only are protests erupting every day 
somewhere in China, the vast majority are peaceful expressions of 
discontent and more often than not they are resolved without recourse 
to violence. When violence takes place and offenders are sentenced by 
courts, the sentences are less harsh than those imposed on the 1989 
June 4 protesters.
    China's police are more sophisticated and less heavy-handed in 
dealing with mass incidents today than they were in 1989, and to some 
extent this appears to be the case with dissent by intellectuals 
(witness the relatively lenient treatment of ``Charter 08'' drafters, 
at least thus far). The exception to this lighter touch is in Tibet and 
Xinjiang. In these autonomous regions and in other areas of the Tibetan 
plateau, a severe crackdown is underway. In 2008, there were more than 
1,600 arrests for ``endangering state security'' crimes in China, more 
than double the number in 2007. Large-scale arrests in protests 
classified as endangering state security have taken place in Tibetan 
areas and in Xinjiang, accounting for well over 50 percent of all ESS 
arrests.
(3) For the first time in Chinese history, a Chinese government had to 
        contend with an outpouring of negative international public 
        opinion after the suppression of the 1989 protests.
    Perhaps the best illustration of what happened to China's 
favorability rating in the United States is a graph of results obtained 
by the Gallup Poll's annual survey of American opinion towards foreign 
countries. Before Tiananmen, China was viewed favorably by more than 70 
percent of the American people. After Tiananmen, only half that number 
still had a favorable impression of the country. Although there has 
been movement up and down over the years, the percentage of American 
people who view China favorably has never exceeded 50 percent since 
Tiananmen, and today stands at 41 percent. (I am very concerned by data 
that suggests that China's unpopularity has metastasized in the US. 
Thee separate polls released so far this year have a majority of 
Americans holding negative views of China).
    Of course, it is not only American public opinion that was badly 
affected by Tiananmen; opinion elsewhere in the world was equally 
negative. The EU imposed an arms embargo that it has to this day 
refused to lift because of Tiananmen. As in North America, there is 
little to suggest that opinion towards China has changed in European 
countries and in other democracies. A BBC poll taken in January this 
year shows a sharp drop in China's popularity across the board in the 
last 12 months.
    In part to counter the bad image that arose after Tiananmen, the 
Chinese government has, in a sense, ``discovered human rights.'' To my 
way of thinking, this is one of the most significant changes 
originating from what happened in Tiananmen 20 years ago. China now 
takes into account what the world thinks about it, not as much as the 
world might want, but far more than in any other period, certainly 
within the life of the People's Republic. Chairman Mao didn't give a 
damn about what foreigners thought, and he presided over far greater 
horrors than Tiananmen. Consider what China has done in human rights 
policy and diplomacy since 1989:

        <bullet>  Sharply reduced the number of executions (a 
        development especially popular in Europe);
        <bullet>  Passed a new labor law that increases protections for 
        workers;
        <bullet>  Reduced use of Reeducation through Labor from more 
        than 300,000 inmates in RTL camps five years ago to roughly 
        170,000 today (China has yet to carry out the promised 
        ``fundamental reform'' of RTL);
        <bullet>  Established a network of rights dialogues and 
        exchanges;
        <bullet>  Held talks with the Vatican and Tibetan exiles;
        <bullet>  Hosted UN rapporteurs, and taken a leadership role in 
        the UN Human Rights Council;
        <bullet>  Published a National Human Rights Action Plan;
        <bullet>  Signed but not ratified the ICCPR; and
        <bullet>  Released and reduced the sentences of hundreds of 
        political prisoners presented on lists to the Chinese 
        government.
    It should be remembered that, prior to Tiananmen, the Chinese 
government had never released a political prisoner as a result of 
international diplomacy, public and private. In the years since 
Tiananmen, the practice has become commonplace. I myself have been 
involved in hundreds of what I call ``transactions'' in this area.
    Polling data suggests China's image has improved when prisoners are 
released. In my opinion, China's international image could benefit from 
a large-scale special pardon on the occasion of the 60th anniversary of 
the founding of the People's Republic of China this fall. This proposal 
is being vigorously debated in China, and I am told that some senior 
leaders have shown an interest, but it is too early to say if Beijing 
will in fact issue a 60th anniversary special pardon, and if it does, 
who will benefit..
    What took place 20 years ago today in China not only changed China, 
it also changed the world.
    It presaged the fall of communism in Eastern Europe and the Soviet 
Union. Governments faced with mass protests decided against using 
force, in part because of the revulsion so widely felt after the 
killings in Beijing.
    It fueled the rise to power of a San Franciscan congresswoman who 
led the fight against the renewal of China's Most-Favored-Nation 
Status. Had she succeeded in imposing conditions that the Chinese 
government refused to meet, China would have lost its access to the US 
market. It is no exaggeration to say that, had that happened, there 
would have been no Chinese economic miracle.
    It ushered in the era of cable news. A fledgling network by the 
name of CNN covered the protests live, and gave us pictures which 
remain vivid in the memory of the world, including that iconic picture 
of a man facing down a tank on Chang An Jie, or the ``Avenue of Eternal 
Peace.''
    Tiananmen changed my life forever. Twenty years ago, I was a 
successful businessman, a business leader in Hong Kong. Today, I run 
The Dui Hua Foundation in San Francisco, a group promoting respect for 
human rights in China and the United States. My first intervention in 
May 1990 was on behalf of a Tiananmen protester. The last release Dui 
Hua announced was of a June 4 hooligan, maybe the last person convicted 
of hooliganism for his involvement in the protests. (Hooliganism, like 
counterrevolution, was removed from Chinese law in 1997). In all, I 
have asked the Chinese government about more than 250 prisoners 
convicted of June 4 related offenses. The great majority have been 
released before the end of their sentences.
    Dui Hua estimates that there are about 30 people still in prison 
for offenses committed on or around June 4, 1989, in China. They are 
now mostly middle-aged men who were once young workers swept up in a 
tide of anger and destruction, youngsters like Wang Jun in Xi'an, who 
at 18 was sentenced to death, suspended for two years and ultimately 
commuted, for burning two police motorcycles and stealing a policeman's 
calculator. All of those who remain in prison for June 4 related 
offenses have received sentence reductions. They have served more than 
half of their sentences, in most cases at least 80 percent. Several are 
serving sentences for crimes removed from the criminal code 12 years 
ago. They no longer represent a threat to society.
    When I first pleaded for the release of a prisoner at a business 
dinner in May 1990, I fumbled to express sentiments not yet completely 
formed, even in my own mind. As I struggled to find the words that I 
needed to convince the Chinese official to release the young protester, 
I found myself quoting what Shakespeare said about the quality of 
mercy: ``It blesseth him that gives and him that takes. Tis mightiest 
in the mightiest.''
    China today is not the China of 20 years ago. It is a mighty 
country, full of success on many fronts and justifiably proud. It 
should shed its insecurity about June 4 and boldly face its history. To 
start the process of healing the country's deep wounds, I hope the 
Chinese government will temper justice with mercy, and release those 
still serving sentences for what they did in the Tiananmen protests of 
20 years ago.

                                 <all>

</pre></body></html>
